                                 DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             October 31, 2002




      The Honorable Paul H. O’Neill
      Secretary of the Treasury
      Washington, D.C. 20220

      Dear Mr. Secretary:

      I am pleased to submit to you the Treasury Inspector General for Ta x Administration’s
      (TIGTA) Semiannual Report to Congress for the reporting period April 1, 2002 through
      September 30, 2002. I am proud to say that despite the turmoil caused by the terrorist
      attacks last year and the increased demands on our staff, TIGTA has successfully
      produced results that aided tax administration and taxpayers nationwide.

      This has been a very productive period for TIGTA’s Offices of Audit and Investigations.
      Highlights of the Office of Audit’s accomplishments include issuing 118 audit reports
      that identified over $54 million in cost savings or funds put to better use, and an
      additional $237.6 million in increased revenue and/or revenue protected. The Fiscal
      Year (FY) 2002 total is $730 million. The Office of Audit also continues to identify
      significant issues related to information systems security, business systems
      modernization, returns processing, voluntary compliance and the earned income tax
      credit.

      The Office of Investigations received 4,254 complaints of alleged criminal wrongdoing
      and/or administrative misconduct, of which 1,926 warranted further investigation. In
      addition, 3,061 investigations were opened and 2,430 were closed. The closed
      investigations included issues such as bribery, misuse of Internal Revenue Service
      (IRS) computer systems, fraud, and employee misconduct. Investigative recoveries
      totaled $3.1 million for this reporting period. The total for FY 2002 is $12.7 million.
      I look forward to continuing to work with you, Congress and IRS officials to help the IRS
      address current and future challenges.

                                                       Sincerely,



                                                       Pamela J. Gardiner
                                                       Acting Inspector General
T
                         able
                         of Contents                                          (CLICK ON ENTRY TO ACCESS REPORT SECTION)


                                                                                                                                         Page

     Dedicated to Our Future: A Message From the Acting Inspector General ....................... 3




                                                                                                                                                   TA B L E O F C O N T E N T S
     Proud of Our Past: Legacy of the First IG .......................................................................... 5

     Congressional Testimony ........................................................................................................ 7

     Results of Work: TIGTA - A Performance-Driven Organization ....................................... 9

                 TIGTA Strategic Goal: Improving the Economy, Efficiency and
                 Effectiveness of Tax Administration ......................................................................... 10

                 TIGTA Strategic Goal: Detecting and Deterring Fraud in IRS Programs
                 and Operations .......................................................................................................... 28

     TIGTA Organization ............................................................................................................. 37

     External Recognition ............................................................................................................. 43

     Appendices ............................................................................................................................. 47

                 Appendix I Office of Audit’s Statistical Reports
                       Audit Reports with Questioned Costs .......................................... Appendix I-1
                       Reports With Recommendations That Funds Be
                         Put to Better Use ....................................................................... Appendix I-2
                       Reports with Additional Quantifiable Impact on Tax
                         Administration .......................................................................... Appendix I-3
                       Prior Period Reports .................................................................... Appendix I-5

                 Appendix II Office of Investigation’s Statistical Reports
                       Investigations Opened and Closed ............................................ Appendix II-1
                       Financial Accomplishments ....................................................... Appendix II-1
                       Status of Closed Criminal Investigations................................... Appendix II-2
                       Closed Dispositions.................................................................... Appendix II-2
                       Administrative Dispositions on Closed TIGTA
                         Investigations .......................................................................... Appendix II-3
                       Complaints/Allegations Received by TIGTA.............................. Appendix II-4
                       Status of Complaints/Allegations Received by TIGTA .............. Appendix II-4
                       Allegations of Misconduct Against IRS Employees .................. Appendix II-5




TIGTA Semiannual Report to Congress                   April 1, 2002 through September 30, 2002                                         Page 1
           Appendix III Statistical Reports — Other
                 Audit Reports With Significant Unimplemented
                   Corrective Actions .................................................................. Appendix III-1
                 Statistical Reports — Others ..................................................... Appendix III-14

           Appendix IV Audit Products (April 1, 2002 – September 30, 2002) ...... Appendix IV-1

           Appendix V Statutory TIGTA Reporting Requirements ................. Appendix V-1

           Appendix VI Section 1203 Standards ................................................ Appendix VI-1


      Hotline Information




TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002                             Page 2
       A
                          Message From the
                           Acting Inspector
                             General

        Despite the turmoil caused by the terrorist attacks last year
        and the increased demands on our staff, TIGTA has
        achieved its goals and produced results that aided tax
        administration and taxpayers nationwide. During this
        reporting period, the Office of Audit (OA) issued
        122 audit products - 118 audit reports and the Inspector
        General (IG) and Deputy IG for Audit (DIGA) testified
        before Congress four times. The Office of Investigations                 Pamela J. Gardiner has
        (OI) opened 3,061 investigations and closed 2,430.                       been Acting Inspector
                                                                                 General since August 2002.
        Between April 1st and September 30th, Counsel
        reviewed 142 proposed regulations and legislation.

        We bade farewell to David C. Williams, the first presidentially appointed
        TIGTA Inspector General who retired in August 2002. His leadership was
        instrumental in the success of TIGTA as an organization and the significant
        accomplishments achieved.

        Our future holds many of the same challenges we have always faced. We will
        continue to streamline our processes and leverage technology to provide audit
        and investigative services effectively. We believe our recently-implemented
        telecommuting program, which we call the Virtual Resource Solution (VRS),
        will ultimately help us achieve greater efficiency in how we perform
        our work.

        In light of the terrorist attacks of September 11, 2001, TIGTA faces great
        challenges in combating terrorism and cyber-terrorism targeted at the IRS.
        In response to heightened security concerns and TIGTA’s responsibility for
        investigating threats against the IRS and its employees, we have established a
        Counter-Terrorism Section (CTS). The CTS coordinates investigative efforts
        and is the centralized repository and dissemination point of threat information
        to the IRS. The CTS proactively identifies domestic and international threats
        made to the IRS by participating on nationwide Federal Bureau of
        Investigation (FBI) Joint Terrorism Task Forces (JTTFs), evaluating
        information developed by JTTFs and other sources, initiating investigations,




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002                     Page 3
       and issuing intelligence reports and advisories notifying TIGTA and IRS
       management of potential threats.

       Additionally, we have initiated a review of our performance goals to ensure
       that we are in alignment with the President’s Management Agenda and that
       our measures are guiding our agency’s workload focus. We will continue
       implementing the President’s Management Agenda by competing functions
       with the private sector (as prescribed in the Office of Management and
       Budget’s Circular A-76) while improving our financial accountability.

       Finally, we will continue to align our organization and focus, as appropriate
       and advisable, with that of the IRS. As IRS modernizes and changes, how
       TIGTA performs its oversight role may change. All of our staff will need to
       stay current and well trained on the latest technology enhancements as well
       as the new ways IRS conducts its business.

       We look forward to welcoming a new IG and a new Commissioner of
       Internal Revenue and seek to further a productive relationship that results in
       improved tax administration.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002          Page 4
        Legacy of the First IG


                      In May 1999, David C. Williams
                        became the first presidentially




                                                                                               P R O U D O F O U R PA S T
                             appointed IG for the
                           newly-established TIGTA




       A
               s a result of the Internal Revenue Restructuring and Reform Act of
               1998 (RRA 98),1 Mr. Williams helped to transition the former IRS
                Inspection Service into an independent IG office tasked with providing
       independent oversight of IRS activities, the IRS Oversight Board, and the IRS
       Office of Chief Counsel. He established the mission and vision of the
       organization, ensured that TIGTA remained independent and objective in both
       perception and reality, and that its products were timely and of high quality.

       He always reminded staff that TIGTA should be “a good deal for the taxpayers.”
       To ensure this happened, he realigned TIGTA. The Office of Audit was
       organized to parallel IRS’ new structure, allowing audit teams to focus on
       specific issue areas. Office of Investigations (OI) Special Agents-in-Charge were
       strategically placed across the country to respond to allegations of fraud, waste,
       and abuse as well as threats and assaults. OI established the divisions of
       Complaint Management, Strategic Enforcement, Special Inquiries and
       Intelligence, Technical and Forensic Support, and Operations.

       Additionally, Mr. Williams realized that TIGTA’s investigative training section
       would be a valuable asset to the entire IG community. In July 1999, a President’s
       Council on Integrity and Efficiency (PCIE) working group proposed that the IG
       Academy and the TIGTA Training Section be merged. Both the PCIE and the
       Executive Council on Integrity and Efficiency (ECIE) endorsed the
       consolidation and the specific recommendations for structuring the newly
       expanded Academy. Congress recently passed legislation that established the
       Criminal Investigator Academy within the Department of the Treasury for the




       1Pub.   L. No. 105-206, 112 Stat. 685.



TIGTA Semiannual Report to Congress        April 1, 2002 through September 30, 2002   Page 5
       purpose of performing investigator-training services for offices of Inspectors General.

       Mr. Williams integrated TIGTA’s budget and performance functions in the Office of
       Performance and Investment before this became one of the top issues of President
       George W. Bush’s management agenda. To ensure TIGTA was positioned to meet
       21st century challenges, he began the Engines of Change Initiative, designed to
       realign the organization efficiently and effectively, leverage state-of-the-art
       technology, address human capital needs and reinforce TIGTA’s position as a
       performance-driven organization.

       He also embraced the idea of telecommuting and instituted TIGTA’s model
       program entitled the Virtual Resource Solution. Realizing that the rest of the
       Inspector General community would benefit from this effort, Mr. Williams
       established a working group and advised other OIGs on the means and benefits of
       mobilizing their workforce.

       Mr. Williams has left a legacy which will enable TIGTA to continue the successes
       achieved in the past.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002              Page 6
        C
                        ongressional
                        Testimony




                                                                                                    CONGRESSIONAL TESTIMONY
          In addition to TIGTA’s audit and investigative work and
          as part of keeping key stakeholders informed of TIGTA’s
             oversight of IRS, the IG and the Deputy IG for Audit
           testified on four occasions during this reporting period
                       before congressional committees.


               Illegal Tax Activities and Their Impact on
                          the Taxpaying Public

        The IG testified on April 11, 2002, before the Committee on Finance, U.S. Senate,
        discussing TIGTA’s efforts to detect illegal tax activities and proposals for IRS to
        reduce illegal tax activities further. The illegal tax activities covered claims for the
        non-existent slavery reparations credit, Disabled Access Credit, Misuse of
        Employer Identification Numbers, advance-fee schemes, and impersonation scams.



                 TIGTA’s Analysis of the Management
                     Challenges Facing the IRS
       On April 15, 2002, testifying before the Subcommittee on Government Efficiency,
       Financial Management and Intergovernmental Relations Committee on
       Government Reform, U.S. House of Representatives, the Deputy IG for Audit
       focused on four areas of management challenges facing IRS: security of IRS
       employees, facilities and information systems; systems modernization; customer
       service performance; and the decline in tax enforcement.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002             Page 7
             The Government Information Security
                      Reform Act (GISRA)
       On May 2, 2002, the IG testified at a Joint Hearing before the Subcommittee on
       Government Efficiency, Financial Management and Intergovernmental Relations
       and the Subcommittee for Technology and Procurement Policy Committee on
       Government Reform, U.S. House of Representatives. The IG provided TIGTA’s
       position regarding H.R. 3844, Government Information and Security Reform Act
       of 2002. The IG pointed out that government agencies continue to struggle with
       the appropriate balance between information technology security and computing
       capacity, too often with an overwhelming bias toward speed and ease of
       oerations.


                  IRS’ Compliance with RRA 98 and
                        Other IRS Challenges

       The IG testified at a Joint Hearing before the Committees of the United States
       Senate and United States House of Representatives on May 14, 2002, to discuss
       IRS’ progress in complying with RRA 98. The IG addressed several significant
       challenges facing the IRS, including its ability to modernize computer systems,
       improve customer service, and increase productivity.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002           Page 8
             TIGTA: A Performance-Driven




                                                                                                  RESULTS OF WORK
                    Organization
        TIGTA conducts audits and investigations that support its mission to achieve
        better program performance for each dollar spent. Its work addresses a pivotal
        point of the President’s Management Agenda - to have performance drive an
        organization toward higher accountability.

        This section highlights how our work during the six-month period covered by
        this report aligns with TIGTA’s strategic goals to:




                 Improve the Economy, Efficiency, and Effectiveness of
                                 Tax Administration

        TIGTA’s audit work supporting this goal assessed areas related to information
        systems security; business modernization; customer service; returns processing;
        filing season; integrating performance and financial management; compliance;
        erroneous payments; and protecting taxpayer rights.



              Detect and Deter Fraud in IRS Programs and Organizations

        Investigative work supporting this area addresses internal and external fraud.
        To achieve this goal, TIGTA investigations focus on three core elements:
        employee integrity; employee and infrastructure security; and external threats
        against tax administration.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002           Page 9
  TIGTA Strategic Goal:
                Improving the Economy, Efficiency &
                Effectiveness of Tax Administration

     To support TIGTA’s strategic goal to improve the economy, efficiency and
     effectiveness of IRS’ tax administration efforts, the Office of Audit (OA)
     annually identifies the major management challenges facing IRS. OA focuses a
     large portion of its work on these challenges by conducting comprehensive,
     independent performance and financial audits. These audits help promote the
     sound administration of the nation’s tax laws through objective reports on
     programs and operational deficiencies. Our audits also provide statutory
     coverage imposed by RRA 98, as well as address areas of concern to Congress,
     the Treasury Department, the Commissioner of Internal Revenue and the IRS
     Oversight Board.




     I
          nformation Systems
           Security

     After September 11, 2001, IRS took significant
     actions to protect its employees from the threat of
     terrorism, and made other significant improvements
     to protect the vast amounts of sensitive data for which
     it is responsible.

     Even with these significant improvements, OA                     OA conducted 17 information
                                                                      systems security reviews —
     determined that sensitive information is still
                                                                      this area continues to be a
     vulnerable to attack by hackers, terrorists, and                 material weakness and major
     disgruntled employees. While recognizing that total              challenge for IRS.
     security can never be achieved and that there must be
     trade-offs between security and operational needs,               Major contributors to the
                                                                      problem — interconnectivity
     OA continues to identify significant weaknesses in
                                                                      of computer systems via the
     perimeter security, infrastructure security, and                 Internet and the new
     application security.                                            understanding of the risk of
                                                                      terrorism in the United States.
     OA attributes many of IRS’ security
     problems to misplaced accountability. As
     OA reported last year, IRS does not hold its




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002                   Page 10
        business (functional) managers accountable for the security of their systems.
        Instead, the Office of Security Services takes primary responsibility for this
        function. As a result, functional managers do not assess annually the security of
        their systems, as required by both the Office of Management and Budget policy
        and the Government Information Security Reform Act.2 In addition, attention is
        needed to enhance the security awareness of IRS managers and employees, and
        to train employees with key security responsibilities.

        OA’s recommendations address the weaknesses identified and IRS management
        has taken or planned appropriate actions. Significant effort will be needed to
        transfer primary responsibility for systems security from the Office of Security to
        business unit managers.

                     A complete list of Information Security reports is in Appendix V or
                     can be found at http://www.treas.gov/tigta/audit_reports.htm




        B        usiness Systems Modernization (BSM)

        IRS’ goal of providing an efficient and responsive information service to its
        operating divisions is heavily dependent on modernizing its core computer
        business systems while maintaining
        the existing systems. IRS has made
        progress in modernizing its
        information systems in such areas as        IRS continues to make
        an upgraded toll-free telephone            progress in modernizing
        system to provide capacity to route              its information
        taxpayers’ calls to the appropriate
        IRS employee; an Internet                  technology systems, but
        application that allows taxpayers to       progress has been slower
        check the status of their returns and        and more costly than
        refunds; an IRS-wide secure
        technology environment; and a                         expected
        system designed to improve the
        availability and performance of
        modernized systems. IRS also released an update to its Enterprise Architecture




       2Floyd D. Spence National Defense Authorization Act for FY 2001, Pub. L. No. 106-398,
       114 Stat. 1654.



TIGTA Semiannual Report to Congress    April 1, 2002 through September 30, 2002                Page 11
      that serves as the roadmap for current and future modernization projects, and is
      working on several key projects that are scheduled for release late in 2002 and
      early 2003. One of the new projects, the Customer Account Data Engine, will
      eventually replace the existing Masterfile of taxpayer accounts.

      However, IRS and its PRIME3 contractor have struggled with developing and
      integrating the discipline and repeatable processes needed to modernize the
      agency’s technology effectively and efficiently. IRS and the PRIME contractor
      have to rely on the dedication of their employees to deliver the projects. IRS and
      the PRIME contractor are challenged with implementing and integrating mature
      processes, while facing increased expectations and scrutiny from Congress and
      other stakeholders. In addition, the BSM projects IRS is designing and
      developing now will be significantly more complex as these process
      improvements are made. This creates a significant risk that costs will continue
      to exceed estimates, along with a delay of benefits to taxpayers.

      Some of the BSM issues OA is monitoring include:

      Meeting project cost and schedule estimates. Virtually all of the BSM projects
      the PRIME contractor controls have experienced delays and have incurred cost
      increases. For the projects OA reviewed, delays of project dates were from four
      to nine months, while cost increases ranged from nearly $700,000 to more than
      $13 million from original estimates. As of September 30, 2002, IRS had spent
      or obligated almost $1 billion in modernization funds. The agency plans to
      spend or obligate about $450 million in 2003. IRS intends to deliver several
      projects with direct taxpayer benefits in 2003. However, some of these projects
      will be deployed later than planned, and others have been scaled back in order to
      meet delivery dates.

      Implementing performance-based contracting processes. Although there have
      been improvements in obtaining agreements on contract requirements and
      reducing modifications, improvements in the application of performance-based
      contracting techniques are needed. For example, plans for monitoring contractor
      performance were not consistent among projects, subjective monitoring methods
      often were used, and determinations of whether or not the PRIME contractor met
      performance standards often were not made or documented.

      Maintaining a consistent strategic direction. The Commissioner of Internal
      Revenue, who will complete his term in November 2002, has been a key player in



       3IRS has contracted with a group headed by the Computer Sciences Corporation (also known as
      the PRIME contractor) to manage its efforts in modernizing its information technology systems.




TIGTA Semiannual Report to Congress     April 1, 2002 through September 30, 2002                   Page 12
       the early development of the BSM program. It will be critical for IRS to stay
       on course - even in light of changes in the leadership of the organization. Any
       changes in strategic direction, such as IRS’ overall business vision or emphasis
       on modernization, could jeopardize IRS’ ability to provide needed
       improvements in serving taxpayers.

       During 2002, IRS and the PRIME contractor identified and are focusing on
       aggressively improving 12 key processes that are necessary to ensure future
       success. Although there are many challenges ahead, OA is cautiously
       optimistic about the future of the BSM program, assuming effective
       management of the risks noted above.

       IRS management generally agreed with most of the recommendations OA
       made during this period and has taken or planned appropriate action.

                    A complete list of the BSM reports is listed in Appendix V and
                    can be found at http://www.treas.gov/tigta/audit_reports.htm




       C        ustomer Service

       RRA 98 mandated that IRS do a better job responding to customer needs. IRS
       revised its mission statement to refocus its emphasis on helping taxpayers
                                                        understand and meet their tax
             Toll-Free Calling Provides More
                                                        responsibilities. IRS also
             Accurate Answers to Taxpayer               modernized its organizational
             Questions (Filing Season 2002)             structure from one that was
                                                         based on function and
                                                         geography to one that is
                    Toll Free Calling — 78%
                                                         aligned with its major
                                                         customer segments.
                        Walk-In 52%

                                                               While IRS has made some
                                                               progress in improving its
              Source: OA Audit Reports4
                                                               customer service, additional
                                                               improvements are necessary.


       4Reference No. 2002-40-086, April 2002; Reference No. 2002-40-113, June 2002; Reference
       No. 2002-40-161, August 2002; Reference No. 2002-40-137, August 2002.
       OA is conducting monthly reviews of the TACS as a result of an amendment to the Treasury
       spending bill for FY 2002 proposed by Senator Byron Dorgan, (D-North Dakota), Chairman of
       the Subcommittee on Treasury and General Government.



TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002                Page 13
       For example, taxpayers have several options from which to choose when they
       need assistance from IRS in answering tax law questions. These options
       include walk-in service at nationwide Taxpayer Assistance Centers (TACs) and
       toll-free telephone assistance. However, OA found variations in the quality of
       service received by taxpayers who use these options.

       The audit results indicate that taxpayers who choose to use the telephone are
       more likely to receive a correct answer to their tax law question than
       taxpayers who choose to visit a TAC. The TACs are the only option for
       assistance that provides face-to-face contact with an IRS employee. IRS
       statistics showed that during the 2002 Filing Season, IRS handled more than
       six million calls from taxpayers who had tax law questions and wished to
       speak to a telephone assistant.5 Also, during the filing period, approximately
       6.2 million taxpayers visited IRS TACs. OA will issue a roll-up report during
       the next reporting period that will include recommendations to address
       improving the accuracy rate in the TACs.

       IRS management has made significant progress in selecting more than
       400 IRS sites nationwide to list their telephone numbers and addresses, but
       these have yet to be published in local telephone books as required. OA made
       recommendations to correct this issue and IRS has taken or planned
       appropriate corrective actions.

       Also, the quality measurement system for IRS’ Internet site has not been
       changed to reflect the new organizational structure. Without a separate
       measure, IRS is unable to reliably determine the quality of service being
       provided to each of its major customer segments. OA recommended that IRS
       take action to develop reliable measures of the quality of service provided to
       each customer segment.

       IRS management agreed and will conduct a study to determine the feasibility
       of implementing the recommendation.

                   Customer Service reports are listed in Appendix IV and can be
                    found at http://www.treas.gov/tigta/audit_reports.htm




       5OA   did not validate the accuracy of these statistics.



TIGTA Semiannual Report to Congress        April 1, 2002 through September 30, 2002     Page 14
       R        eturns Processing

       The Small Business/Self-Employed (SB/SE) Division serves approximately
       45 million taxpayers, including fully or partially self-employed individuals
       and small businesses. Many of these taxpayers are required by law to file a
       number of complex tax forms and schedules, which increases the inherent
       risk of filing and processing errors on the part of taxpayers and IRS. A
       strategic goal of IRS is to reduce the burden placed on these taxpayers. To
       help reduce taxpayer burden through improved business practices, IRS has
       shifted its focus from addressing taxpayer problems well after returns are
       filed to addressing them as early in the process as possible, thereby preventing
       problems wherever possible.

       The following summarizes the results of OA’s significant reviews in
       this area.


             The Internal Revenue Service Needs to Simplify Filing
           Requirements and Clarify Processing Procedures for Small
           Business Corporate Returns (Reference No. 2002-30-186)
                      http://www.treas.gov/tigta/2002reports/200230186fr.html
       Each year IRS is unsuccessful in processing U.S. Income Tax Returns for an
       S Corporation (Form 1120S) for an estimated 46,000 small businesses. In
       these instances, IRS did not have the necessary Elections By a Small
       Business Corporation (Form 2553) on file to allow the Form 1120S returns
       to be processed. These taxpayers spent an estimated 3.2 million hours each
       year preparing, copying, assembling and sending these returns, which IRS
       then could not successfully process.

       In addition, IRS did not consistently process
       Forms 1120S and determine the correct taxes
                                                                    IRS did not
       due from small business taxpayers. In                        consistently
       Calendar Year (CY) 2000, IRS did not process                 determine the
       an estimated 9,000 returns as small business
       corporations, even after the taxpayers verified
                                                                    correct and proper
       that their election requests were granted.                   taxes due by small
       Instead, IRS converted these Forms 1120S to                  business corporate
       Forms 1120 and processed them as regular
       corporate returns without considering the fact
                                                                    taxpayers
       that the taxpayers verified the elections were



TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002            Page 15
      granted. Because these returns were not processed correctly, there is the
      potential for the erroneous assessment of taxes on $41 million of profits and the
      inability of taxpayers to claim over $100 million in losses. Further, because of
      unclear IRS procedures, approximately 3,700 taxpayers who filed unprocessable
      Forms 1120S may have their rights violated when IRS assesses taxes on an
      estimated $6.7 million in profits without sending a statutory notice of deficiency.

      OA recommended the development of procedures that would improve and
      simplify the process for approving, recording, and controlling elections and the
      related notification process. This will make it easier for taxpayers to file their
      Forms 1120S and ensure the accuracy of the IRS’ records. Implementation of
      these recommendations should reduce taxpayer burden for an estimated
      232,000 taxpayers over a five-year period and reduce erroneous assessments and
      violations of taxpayer rights for approximately 50,000 taxpayers.

      IRS management’s response was not received prior to the issuance of the
      audit report.


        The Internal Revenue Service Successfully Processed Schedules
         K-1 for Its Matching Program, However, Tax Form Changes
               Would Reduce Unnecessary Notices to Taxpayers
                         (Reference No. 2002-30-141)
                      http://www.treas.gov/tigta/2002reports/200230141fr.html
      It is estimated that between 6 and 15 percent of approximately $850 billion in
      partnership, trust and S-corporation income is not reported on individual income
      tax returns as required by law. IRS is under a mandate by the Senate Committee
      on Finance to match the information reported to taxpayers on Schedules K-1 to
      the taxpayers’ individual income tax returns.

      IRS processed Schedules K-1 timely and took the necessary steps to capture
      information to evaluate the effectiveness of the Schedule K-1 matching process.
      However, while OA could not verify how accurately the Schedules K-1 were
      processed, OA recommended modifications to one tax schedule (Supplemental
      Income and Loss, Form 1040 Schedule E) that could improve IRS’ matching
      process and reduce the risk of erroneous matching results and unnecessary
      taxpayer notices.

      IRS management agreed to analyze the data collected from ongoing matching
      efforts and establish a cross-functional work group to identify and evaluate
      potential improvements to the Schedule K-1 matching process, including OA’s
      recommended Schedule E changes.



TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002              Page 16
       F       iling Season


       The filing season impacts every American taxpayer and is a highly critical
       program for the IRS. Programs, activities and resources have to be planned
       and managed effectively each filing season.

       The following summarizes the results of TIGTA’s review of 2002
       filing season activities.


          Although the 2002 Filing Season Was Completed Timely,
         Customer Service Can Be Improved During Error Processing
                        (Reference No. 2002-40-200)
                  http://www.treas.gov/tigta/2002reports/200240200fr.html
       Overall, IRS had a successful 2002 Filing Season. As of May 31, 2002, it
       had received 123.2 million individual income tax returns - including
       46.3 million received electronically - representing a small increase over
       2001. Despite an unusually large number of unexpected errors, IRS
       completed processing all refund returns in a timely way. The increase in
       errors was caused primarily by taxpayer confusion in correctly reporting any
       additional Rate Reduction Credit (RRC) due after receiving the advance RRC
       credit refund in the summer of 2001.

       IRS management could further improve its quality of             2002 Filing Season
       taxpayer service by using a proactive approach when
       correcting error returns while in the Error                      completed timely
       Resolution System (ERS). When IRS identified and               despite large number
       corrected errors related to an incorrect RRC during          of unexpected errors at
       normal tax return processing, these corrections
       resulted in 132,672 taxpayers becoming eligible for             processing centers
       the Additional Child Tax Credit (ACTC) totaling
       $25.7 million. Although IRS acknowledged the
       eligibility of these taxpayers and stated that applying the credit during error
       processing was feasible within the automated adjustment process available,
       IRS chose not to.

       IRS’ decision not to apply the credit during original return processing was
       based on the assumption that these returns would be identified later and the




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002        Page 17
      taxpayers given the appropriate credit during the planned outreach initiative.
      However, IRS subsequently cancelled this initiative.6

      OA recommended that IRS consider developing a proactive approach in the ERS
      to apply appropriate credits affected by the corrections made during error
      processing. IRS declined this recommendation, citing limited capability and
      capacity and the complicated computer programming required as the primary
      obstacles preventing it from using the ERS as a proactive tool. However, IRS
      did acknowledge the recommendation’s intent and agreed to notify the
      132,672 taxpayers identified as to their potential eligibility for $25.7 million in
      unclaimed ACTC. OA responded that while it believes this recommendation is
      worthy of further consideration, it recognizes the limitations expressed by IRS
      and believes IRS will continue working to overcome such limitations in
      the future.



      Outreach Initiatives Need to Ensure Taxpayers Receive the Benefit
             of the Child Tax and Additional Child Tax Credits
                         (Reference No. 2002-40-203)
                        http://www.treas.gov/tigta/2002reports/200240203fr.html


      After the 2002 Filing Season, IRS planned to conduct a proactive outreach
      initiative that would identify and contact eligible taxpayers who failed to claim
      the Child Tax Credit (CTC) or the ACTC on their 2001 Individual Income Tax
      Returns. Analysis of tax returns processed between January 1 and May 31, 2002
      determined that approximately 1.6 million taxpayers claimed the ACTC.

      Additionally, OA identified 611,560 Tax Year (TY) 2001 tax returns where
      taxpayers did not claim potential ACTC totaling $238 million. Of these,
      87 percent qualified under the new tax law provisions of the Economic Growth
      and Tax Relief Reconciliation Act of 2001 (EGTRRA), with 74 percent having
      earned income of less than $25,000 per year.

      Taxpayers who appeared eligible, but did not claim or receive the credit, fell into
      two categories.7 The larger consisted of 478,888 tax returns where taxpayers




      6See   related audit report, Reference No. 2002-40-203, September 2002.
      7OA only   addressed this category in this report. The remaining taxpayers are addressed in a
      related report, Reference No. 2002-40-200, September 2002.



TIGTA Semiannual Report to Congress      April 1, 2002 through September 30, 2002                     Page 18
       failed to claim the ACTC - totaling $212.3 million - on their original tax returns
       and were not identified during IRS processing. IRS has no method in place to
       detect tax returns meeting this condition during normal IRS processing.

       In April 2002, OA issued a memorandum recommending that IRS consider
       modifying its planned outreach initiative, accelerating the issuance of notices by
       using TIGTA’s computer extract8 of affected returns as a means to quickly notify
       taxpayers of their potential ACTC eligibility. However, in May 2002, IRS
       cancelled the initiative. IRS is currently looking at other options such as mailing
       a flyer to potentially eligible taxpayers.




       I    ntegrating Performance and Financial
            Management

       Improving performance is an overall goal of the federal government. Without
       accurate and timely financial information, it is not possible to accomplish the
       President’s Management Agenda to secure the best performance and highest
       measure of accountability for the American people.

       The following summarizes the results of OA’s significant
       reviews in this area.


            Computers Used to Provide Free Tax Help and That Contain
                Taxpayer Information Cannot Be Accounted For
                         (Reference No. 2002-40-144)
                       http://www.treas.gov/tigta/2002reports/200240144fr.html
       IRS’ Volunteer Income Tax Assistance and Tax Counseling for the Elderly (VITA/
       TCE) program provides free tax assistance to people for whom professional
       assistance may be too expensive. In an effort to promote IRS electronic filing
       (e-filing), IRS provides more than 6,600 computers and the tax preparation
       software necessary to enable volunteers to offer taxpayers who receive
       assistance the option of e-filing their tax returns. For Filing Season 2001,


       8
        To claim the ACTC, taxpayers must first claim the CTC. TIGTA’s computer extract identified
       all taxpayers claiming the CTC and then analyzed the return data for the potential eligibility of
       taxpayers that had not also claimed the ACTC. OA’s extract did not identify potentially eligible
       taxpayers that did not claim the CTC.




TIGTA Semiannual Report to Congress      April 1, 2002 through September 30, 2002                    Page 19
      volunteers prepared approximately 1.1 million tax returns, with more than
      700,000 (64 percent) e-filed.

      IRS does not have adequate internal controls and accountability over the
      computers it provides to VITA/TCE sites. It cannot physically account for
      computers provided to volunteers, did not ensure that taxpayer e-file data were
      removed from volunteer computers at the end of Filing Season 2001, and did not
      ensure that only authorized software was loaded on volunteer computers when
      provided.

      OA recommended that IRS management perform a physical inventory of all
      computers in its VITA/TCE program. Procedures should be developed,
      distributed, and implemented to ensure that property records are updated for all
      computer equipment obtained from external agencies, e-filed taxpayer data is
      erased from volunteer computers at the conclusion of a tax filing season, and
      only authorized software is loaded onto volunteer computers. IRS management
      should pursue legislative changes that would allow IRS to transfer ownership of
      the computers to the volunteer organizations. Presently, the Federal Property
      and Administrative Services Act of 19499 prohibits IRS from donating computers
      to volunteers. As a result, IRS must continue to maintain control and
      accountability over these computers, as well as to protect taxpayer data saved on
      these computers.

      IRS management agreed with the recommendations and is taking appropriate
      corrective action.
           Criminal Investigation’s Use of Confidential Funds for
       Undercover Operations Is Appropriate; However, Certain Aspects
               of Undercover Operations Need Improvement
                       (Reference No. 2002-10-196)
                        http://www.treas.gov/tigta/2002reports/200210196fr.html

      In general, the Criminal Investigation (CI) function’s use of approximately
      $4 million in confidential expenditures was appropriate in the 12 undercover
      operations OA reviewed. However, instances were identified where confidential
      information was in jeopardy of being breached. More attention is needed on
      some categories of expenses, namely those that were unauthorized, unsupported,
      or unrelated to ongoing investigations. In addition, not all payments to
      informants were properly documented.

      OA recommended that CI management minimize potential security breaches of
      undercover identities; provide closer scrutiny of certain high-risk expenses;

      9Pub.   L. 81-152, 63 Stat. 377.



TIGTA Semiannual Report to Congress      April 1, 2002 through September 30, 2002         Page 20
        reemphasize existing procedures for payments to confidential informants; and,
        emphasize adherence to administrative reviews and record keeping.

        CI management agreed with the findings and recommendations.




        C          ompliance

        IRS’ goal of providing world-class service to taxpayers is based on the theory that,
         if the agency provides the right mix of education, support, and up-front problem
        solving to taxpayers, the overall rate of voluntary compliance with the tax laws
        will increase.

        The following summarizes the results of OA’s significant
        reviews in this area.


            The Internal Revenue Service Does Not Penalize Employers that
             File Wage and Tax Statements with Inaccurate Social Security
                        Numbers (Reference No. 2002-30-156)
                         http://www.treas.gov/tigta/2002reports/200230156fr.html

        Both the Social Security Administration (SSA) and IRS have critical interests in
        ensuring the accuracy of information provided by employers on Wage and Tax
        Statements (Forms W-2). SSA is required to maintain accurate earnings records
        and calculate Social Security benefits. IRS uses the Social Security Number
        (SSN) to ensure that information submitted by taxpayers is properly processed to
        the IRS’ Masterfile10 and to rely on the accuracy of Forms W-2 in programs to
        verify filing and reporting compliance with tax laws.
        To achieve more accurate name/SSN reporting by employers, SSA requested in
        November 1998 that IRS more strictly enforce the “information return” penalty
        against employers.11 As a follow-up, in August 2000 SSA provided IRS with a
        list of the most egregious non-compliant employers for TYs 1997 and 1998.
        SSA provided this information so IRS could determine whether or not to
        assess penalties.
        OA determined that IRS does not impose available penalties on employers who
        file Forms W-2 with inaccurate name/SSN combinations. Also, IRS has not
       10The Masterfile is the main IRS computer system that stores various types of taxpayer account
       information, including individual and business data.
       11
            Internal Revenue Code (I.R.C.) § 6721.



TIGTA Semiannual Report to Congress        April 1, 2002 through September 30, 2002               Page 21
      developed a regularly scheduled program for administering the information
      return penalty for those forms.
      In this context, IRS did not determine whether penalties should be assessed
      against the most egregious non-compliant employers. As a result, IRS did not
      propose and, subsequently assess when justified, an estimated $26 to
      $29.7 million in penalties against 93 employers for TY 1997 and
       98 employers for TY 1998.

      OA apprised IRS of this concern through a memorandum issued during the
      audit. OA recommended that IRS ascertain if penalties could be assessed
      before the three-year statute of limitations expired12 and meet with SSA to
      develop jointly a method for SSA to refer formally to IRS the most egregious
      non-compliant employers for penalty consideration in future years.
      Moreover, OA apprised IRS of the need for a separate, regularly scheduled
      penalty program.
      IRS management determined that assessing penalties so close to the statute
      expiration date would be contrary to the IRS’ due process procedures and
      could compromise taxpayers’ rights. However, IRS management agreed with
      the remaining recommendations and is taking corrective action. IRS also
      advised that it is exploring the ramifications of not pursuing this area of
      non-compliance.


           The Large and Mid-Size Business Division’s Program Controls
        Could Be Improved to Ensure More Timely and Accurate Examinations
                              of Large Corporations13
                           http://www.treas.gov/tigta/audit_reports.htm
      The Large and Mid-Size Business (LMSB) Division has responsibility for
      examining the nation’s largest corporations. For examination purposes, the
      LMSB Division divides the nation’s 58,000 large corporations into two
      segments. About 1,300 are classified as Coordinated Industry Cases (CIC),
      while the remaining are referred to as Industry Cases (IC). The CIC and IC
      corporate examinations account for about two-thirds of all recommended
      additional taxes from all IRS examinations. However, the length of time it
      takes to complete the burdensome examinations has been an ongoing concern
      of both IRS and stakeholders.




      12I.R.C.   § 6501.
      13Reference   Nos. 2002-30-147, 2002-30-148, and 2002-30-149, September 2002.



TIGTA Semiannual Report to Congress     April 1, 2002 through September 30, 2002      Page 22
       Due to the complexity of the tax issues in large corporate examinations,
       examiners are often required to call upon Engineer Specialists, Financial
       Products Specialists, and Computer Audit Specialists for assistance. OA’s
       reviews of the processes for requesting and providing these types of specialized
       assistance indicated the time taken to do so might hamper LMSB Division’s
       efforts to meet its goals for timely completing examinations and reducing the
       burden lengthy examinations have on taxpayers.

       For example, the LMSB Division has a FY 2003 goal of closing IC and CIC
       examinations in 29 and 54 months, respectively, after the returns are filed.
       However, OA analysis showed that after returns were filed, Engineer Specialists
       were taking an average of 36 months to complete their portion of an IC
       examination and about 56 months to complete a CIC examination. Similarly,
       Financial Products Specialists were taking an average of 37 months to complete
       their portion of an IC examination and about 43 months to complete a CIC
       examination. OA reviews also identified that examiners were not consistently
       requesting the assistance of the specialists in IC examinations when they should.
       As a result, issues involving approximately $724 million of potential tax
       revenue were overlooked.

       To address the timeliness of requesting and delivering Engineer and Financial
       Products Specialist services, OA recommended: (1) ensuring management’s
       information system has complete data so problems that affect timeliness can be
       identified and addressed; and, (2) providing guidance to managers on
       establishing specific time frames for completing examinations that are aligned
       with the LMSB Division goals. OA also recommended establishing a control
       process that ensures the three types of specialists have an opportunity to assist in
       all large corporate examinations.

       IRS management agreed with these findings and is taking action to implement
       the recommendations.




       E        rroneous Payments


       Improper payments include inadvertent errors, unsupported or inadequately
       supported claims, services not rendered, ineligible beneficiaries, and payments
       resulting from outright fraud and abuse by program participants or
       federal employees.

       In early CY 2002, the U.S. Chief Financial Officers Council and the PCIE
       jointly chartered a work group to address improper and erroneous payments




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002           Page 23
      government-wide. The work group’s mission is to assist in fostering changes in
      federal government policies and practices that will reduce the risks associated
      with the expenditure of program and administrative funds. It is seeking to
      identify and benchmark methods to reduce and, where possible, eliminate
      improper and erroneous payments made by federal agencies. TIGTA is
      participating in this important effort.


      The following summarizes the results of OA’s significant reviews in
      this area.


               The Internal Revenue Service Does Not Always Address
               Subchapter S Corporation Officer Compensation During
                    Examinations (Reference No. 2002-30-125)
                      http://www.treas.gov/tigta/2002reports/200230125fr.html
      A corporation electing to become a Subchapter S Corporation
      (S Corporation) may pass through its income and losses to its shareholders for
      federal income tax purposes. In addition, S Corporations are required to pay
      their officers a reasonable salary for any personal services rendered in the
      administration or management of the corporation.

      Some S Corporations have historically paid very small salaries to their officers
      and passed through most of the S Corporation’s income directly to the officers.
      This action enables the S Corporation and the officers to avoid paying the
      Federal Insurance Compensation Act (FICA)14 tax on a reasonable amount of
      compensation or salary. As recently as 1998, IRS conducted a study of
      S Corporation officer compensation. The study results indicated that as much
      as $284 million in FICA taxes might have been unreported for TY 1995.

      OA reviewed 84 S Corporation cases, of which 58 had officer distributions, but
      examiners did not address officer compensation issues in 13 (22 percent) of the
      58 cases. In the cases reviewed, the shareholders reported an average of only
      $5,300 of wages on the Form W-2, while reporting an average distribution of
      $349,323. OA also determined that examiners have limited access to
      sophisticated tools, such as software and databases, which are necessary to
      identify S Corporations that attempt to evade paying FICA taxes on reasonable
      officer salaries. Additionally, IRS management could improve its outreach
      efforts to improve S Corporation compliance through more educational activities.



      14   I.R.C. §3101.



TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002           Page 24
       OA recommended that IRS management improve its technical guidelines to
       ensure that examiners are aware of the requirements to search for
       S Corporation non-compliance and to increase the educational outreach through
       IRS’ Taxpayer Education and Communication function. Additionally, OA
       recommended programming changes to computer systems, which would enhance
       the IRS’ ability to identify non-compliant S Corporations.

       IRS management agreed with the recommendations and is taking
       corrective action.



             Despite Some Problems, the Internal Revenue Service Properly
            Identified Returns With Rate Reduction Credit Errors During the
                     2002 Filing Season (Reference No. 2002-40-142)
                       http://www.treas.gov/tigta/2002reports/200240142fr.html


       The Economic Growth and Tax Relief Reconciliation Act of 200115 provided that
       eligible taxpayers who had not received their maximum advance refund may be
       able to claim a Rate Reduction Credit (RRC) or use the new ten percent tax rate
       on their TY 2001 returns. Overall, IRS propery identified and referred for
       correction returns with RRC and 10 percent tax rate errors during the
       2002 Filing Season. However, IRS did experience problems related to the
       RRC and its unexpectedly large volume of errors (over six million compared to
       an expected three million).

       OA identified a problems with the advance refund information that was added to
       the National Account Profile (NAP).16 Thirty-five million taxpayers who did not
       receive an advance refund in CY 2001 did not have a zero advance refund
       amount information added to the NAP to assist them in determining if they were
       entitled to the RRC.

       Also, no advance refund amount was placed on the surviving secondary
       spouse’s NAP account for a jointly filed TY 2000 return with a deceased
       taxpayer. If the surviving secondary spouse filed a TY 2001 return, IRS




       15Pub. L. No. 107-16, 115 Stat. 38.
       16The NAP database contains taxpayer entity information (taxpayer name and SSN). This
       database is used to validate tax return entity information during processing.



TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002                 Page 25
      computers could have added a RRC that the taxpayer was not entitled to
      receive, resulting in approximately 217,000 taxpayers receiving
      approximately $50 million in erroneous RRCs if these taxpayers all filed
      TY 2001 returns.

      OA reported both of these conditions early in the review and IRS
      management took prompt corrective action. These conditions were caused
      by both a programming oversight and misinterpretation of programming
      requirements.




      P         rotecting Taxpayer Rights

      In addition to the RRA 98 statutory reviews (see Appendix V), OA conducted
      reviews to determine whether the IRS is protecting taxpayer rights in other areas
      of the IRS.


            The New Suspension of Interest Provision is Not Always
              Calculated Correctly (Reference No. 2002-10-187)
                       http://www.treas.gov/tigta/2002reports/200210187fr.html

      Congress believed that certain types of IRS interest and penalties could
      quickly increase a tax debt so that it becomes difficult for most taxpayers to
      satisfy their unpaid tax liabilities. As a result, the Internal Revenue Code17
      was revised and now requires the IRS to suspend the accumulation of further
      interest unless a taxpayer is notified of an additional tax assessment within
      18 months following a timely filed individual tax return.

      OA’s review of the suspension of interest provision determined an estimated
      29,000 taxpayers were under-assessed a total of $1.6 million in interest due
      to a computer programming discrepancy.

      Additionally, OA estimated 4,600 taxpayers were over-assessed $536,000
      and 5,700 taxpayers were under-assessed $139,000 in interest because the




    17I.R.C.§   6404 (g).



TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002            Page 26
       IRS did not timely or correctly input notification dates or properly include
       weekends or holidays in the calculation of the notification period. OA also
       identified that IRS computer programming incorrectly over-assessed interest on
       Earned Income Tax Credit (EITC) adjustments for an estimated 2,000 taxpayers,
       totaling approximately $26,000 in interest.

       OA recommended IRS identify all suspension of interest taxpayers with
       applicable under-assessed interest due and zero out any under-assessed amounts.
       OA also recommended IRS provide a systemic reminder about suspension of
       interest when employees close audits; update computer programming to consider
       weekends and holidays in the calculation of the suspension of interest
       notification period; and adjust applicable taxpayer accounts with incorrectly
       suspended EITC interest amounts.

       IRS management agreed with the recommendations and is taking corrective
       action.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002      Page 27
        TIGTA Strategic Goal:
                       Detecting & Deterring Fraud
                       in IRS Programs and Operations

            TIGTA is responsible for conducting investigations and audits to help prevent,
            detect, and deter waste, fraud and abuse in IRS programs and operations. This
            includes: investigating allegations of misconduct by IRS employees; protecting
            IRS against external attempts to corrupt or threaten its employees; and
            performing reviews of activities related to fraud, waste, abuse and
            mismanagement of IRS and related entities, such as the IRS Oversight Board
            and IRS Chief Counsel.

            TIGTA’s efforts serve as a deterrent against those contemplating illegal actions
            that would undermine the integrity of federal tax administration.




           S      trategic Enforcement Division (SED)

         SED conducts proactive investigative initiatives that are based on research and
         analysis or information developed from criminal referrals. The methodology of
                                                       the crime is used to develop
                                                       computer database applications that
SED, within the Office of Investigations, is           will identify other individuals who
     comprised of three components:
                                                       may be perpetrating the same crime.
  Special agents, forensic data analysts, and          These investigative initiatives use
  computer programmers who execute                     computer matching and are
  proactive programs to detect internal fraud
  in IRS operations and unauthorized access
                                                       included in Computer Matching Act
  to IRS computer systems.                             agreements,   Pub. L. No. 100-503.
                                                       During this period, there were
  Special agents and computer programmers
  - the System Intrusion Network Response
                                                       14 ongoing proactive initiatives that
  Attack Team (SINART) - who investigate               produced 184 criminal and
  attempts to interfere with the security,             administrative referrals to field
  integrity, and reliability of IRS computers.
                                                       special agents for investigation.
   Special agents assigned to the Computer
   Investigative Support Program (CIS) who                    One of SED’s initiatives identifies
   provide forensic processing of computers
   and other media in support of TIGTA
                                                              employees who have made potential
   investigations.                                            unauthorized accesses to electronic
                                                              taxpayer information on IRS
                                                              computer systems. For example, in
                                                              July 2002, a former IRS employee



    TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002             Page 28
        was sentenced to five years probation for accessing and disclosing tax return
        information. Additionally, the employee’s father, a certified public
        accountant, pled guilty to a misdemeanor count of procuring the unlawful
        access to confidential tax records. The investigation, assisted by SED,
        revealed that the employee assisted the father with several client accounts by
        altering confidential computerized taxpayer records so that the tax
        collections would be delayed and penalties eliminated.

        During this six-month reporting period,
        TIGTA has identified and analyzed                                       SED OPERATIONS
                                                                 CRIMINAL CASE REFERRALS AND FIELD ASSISTANCE
        1206 leads of potentially unauthorized
        accesses to tax information by IRS
        employees. Also, TIGTA referred 174
        criminal cases to field special agents for                        COUNTER-
                                                                         TERRORISM           UNAX
        investigation for violations of the                              ASSISTANCE
                                                                             2%
                                                                                            CRIMINAL
                                                                                           REFERRALS
        Taxpayer Browsing Protection                                                          34%

        Act of 1997. Since April 2002, there                            FIELD CASE
                                                                                              OTHER
        has been one criminal prosecution and                           ASSISTANCE
                                                                            56%              CRIMINAL/
                                                                                              ADMIN.
        41 adverse administrative actions                                                   REFERRALS
                                                                                               11%
        against IRS employees involved in the
        unauthorized accesss of tax information.


        SINART Activities

        SINART is a cooperative effort between SED special agents, computer
        programmers and IRS Office of Cyber Security – Computer Security
        Incident Response Team employees. The SINART unit promotes security
        and integrity of all IRS computer systems by providing technical support,
        conducting criminal investigations, and participating in proactive initiatives.
        During this reporting period, SINART special agents and computer
        programmers conducted 14 computer security reviews/tests and 18 criminal
        investigations.

        To highlight, SINART agents and programmers have identified that a
        vendor’s Virtual Private Network (VPN) was attacked. The affected VPNs
        are widely used throughout the government. SINART acted immediately to
        disseminate this information to the federal computer security community.
        The vendor verified the vulnerability and issued a software fix. SINART
        also conducted a joint operation with the IRS Computer Security Incident




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002                     Page 29
     Response Capability (CSIRC) to validate the overall security of the IRS Large
     and Mid-Size Business Virtual Private Network project. As a result
     of this penetration testing, security concerns were uncovered and reported to
     the IRS.

     CIS Activities

     The CIS program provides support and advice concerning: the search and
     seizure of computers and computer related media; the processing of seized
     electronic evidence; and, Internet related crimes and investigations.

     Computer forensic examination was instrumental in the investigation of a
     check-cashing scheme involving stolen Treasury checks in Texas. As a result of
     the investigative work, which identified photographs and driver license
     templates used in the scheme, an individual was arrested for theft of government
     checks and manufacturing counterfeit driver licenses. The individual was
     sentenced to 33 months incarceration and ordered to make $41,304 in
     restitution.

     Since April 2002, CIS special agents have conducted forensic examinations in
     70 TIGTA investigations, reviewing 140 devices containing 1,520 gigabytes of
     storage space.




     I   nternal Fraud

     OI conducts investigations that protect taxpayers from IRS employees who
     commit criminal violations and administrative misconduct. These inquiries may
     involve allegations of unauthorized access to and disclosure of confidential
     taxpayer information, bribery, financial fraud, false statements and abuse of
     taxpayer rights.

     Investigative highlights follow.

                     IRS Special Agent Arrested and Indicted for
                              Soliciting $60,000 Bribe

     In April 2002, an IRS special agent was arrested after the attorney representing
     an individual reported that the IRS special agent solicited a cash bribe of
     $60,000 in exchange for disclosure of grand jury and tax return information.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002          Page 30
        With assistance from OI’s Technical Services Section, electronic audio and
        video evidence was gathered which showed the IRS special agent accepting
        $6,000 as a down payment for the information. The agent was arrested
        before leaving the meeting.

                       IRS Employee Pled Guilty to Stealing over
                              $191,000 in Remittances

        An employee at an IRS Submission Processing Center altered the payee
        named on tax remittance checks and attempted to convert the money for
        personal use by depositing the checks into a personal bank account.

        In April 2002, the employee pled guilty and was sentenced to five years
        probation for stealing checks and a money order totaling $191,871. The
        checks and money order were made payable to either the IRS or the U.S.
        Treasury Department. TIGTA recovered the stolen money and the taxpayers’
        accounts were properly credited.

                Former IRS Investigative Aide Arrested for Worker’s
                             Compensation Fraud

        In the Eastern District of New York, a former IRS employee submitted false
        certifications regarding employment status in order to continue receiving
        worker’s compensation benefits. The employee received approximately
        $38,000 in self-employment wages by preparing federal tax returns for
        individuals and churches, while receiving approximately $110,000 in
        worker’s compensation benefits. With the assistance of OI’s Technical
        Services Section, covert video and digital audio equipment was used to
        prove the former IRS employee, who was arrested in July 2002, knowingly
        provided false statements.

            Laboratory Analysis Leads to Guilty Plea of IRS Employee

        An IRS Tax Examining Assistant pled guilty in June 2002 to embezzling
        checks and money orders made payable to the IRS. The employee altered
        the letters “IRS” to indicate the employee’s own name, and then endorsed
        and deposited the checks into a personal bank account.

        Handwriting analysis by OI’s Forensic Science Laboratory concluded that
        the employee signed the endorsements on the checks and money orders. The
        plea agreement requires the employee to pay restitution to the IRS in the
        amount of $9,395.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002       Page 31
                        IRS Mail Clerk Embezzles Taxpayer Refunds

           An IRS mail clerk in the Eastern District of California pled guilty to
           embezzling $32,583 in taxpayer refunds. The employee opened envelopes
           that contained tax return forms and altered the forms to direct taxpayer
           refunds to be electronically transferred to the employee’s bank accounts.
           The IRS was notified of the employee’s actions and the taxpayers were
           immediately sent refunds.




           E       xternal Fraud

           OI is responsible for protecting against external attempts to corrupt the IRS,
           its employees, facilities and data systems.

           Investigative highlights follow.

                       Bomb Threat at IRS Building Results in Arrest

           In July 2002, an individual was arrested for making a bomb threat at a
           building that housed IRS and SSA offices. The individual became angry and
           began cursing when an IRS customer service representative was unable to
           resolve the individual’s problem with a tax refund. Upon leaving the
           building, the individual commented that there was a bomb in the building.
           The building was immediately evacuated and searched, but no bomb
           was found.


                     Tax Preparer Sentenced in Murder-for-Hire Plot

           In August 2002, a tax preparer was sentenced to five years imprisonment for
           conspiracy to tamper with a witness. The investigation began when TIGTA
           received information from a local police department regarding an alleged
           murder for hire plot that possibly included an IRS special agent as a target.

           According to the plea agreement, the tax preparer sought to locate someone
           who would murder five individuals that the tax preparer believed might
           provide incriminating information to law enforcement in connection with an
           ongoing IRS investigation of the tax preparer’s business. The tax preparer




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002              Page 32
       paid an individual $5,000 to purchase guns and conduct surveillance of the
       targets.

               Individual Sentenced for Threatening IRS Employee

       In the Northern District of Florida, an individual entered an IRS office
       requesting assistance in preparing a personal income tax return. During the
       meeting with an IRS employee, the individual became irate when requested
       to provide SSNs for dependents. The individual grabbed papers from the
       IRS employee and upon exiting the interview room, threatened to return with a gun.

       In May 2002, the individual was sentenced to two months imprisonment for
       interfering with the administration of internal revenue laws by threatening
       an IRS employee.


          Individual Arrested for Multiple Threats to IRS Employees

       In April 2002, TIGTA special agents arrested an individual who made
       threatening statements to IRS employees during telephone contact. The
       individual was indicted for interfering with internal revenue laws by threat
       or force by using interstate communications.


             Individual Sentenced for Assaulting Special Agent and
                                 Investigator

       In June 2002, an individual was sentenced to 96 months incarceration for
       assaulting a federal officer with the use of a deadly weapon. An inmate,
       while attempting to escape from the custody of a county sheriff’s deputy,
       assaulted a TIGTA Special Agent and IRS General Investigator, who came
       to the assistance of the deputy. Both the General Investigator and the
       Special Agent assisted in subduing the inmate as the inmate engaged in a
       violent struggle with the deputy.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002              Page 33
                          Individual Pled Guilty to Bribing Taxpayer
                                     Advocate’s Employee

    In an effort to expedite the processing of amended tax returns, an individual
    offered an IRS employee a bribe on two separate occasions. The individual
    ultimately mailed a portion of the bribe to the IRS employee and in a subsequent
    telephone conversation confirmed that the money was provided in order to
                                                    expedite the processing of amended
                                                    tax returns. In June 2002, the
                                                    individual pled guilty to bribing a
                                                    public official.


                                                            Business Owner Indicted
                                                                  for Bribery

                                                     A business owner owed the IRS
                                                     approximately $410,829 in assessed
                                                     taxes, penalties and interest arising
                                                     from an audit. The owner gave an
                                                     IRS revenue officer checks totaling
                                                     $18,665 in return for delaying the
    collection of the owner’s tax liability. In June 2002, the owner was charged with
    bribing an IRS employee.


            Tax Preparer Convicted of Impersonating an IRS Official

    A tax preparer bilked a couple of $17,500 to clear a nonexistent tax liability. The
    tax preparer authored a fictitious IRS letter to the couple advising them they owed
    back taxes. After charging the couple a $17,500 fee, the tax preparer generated a
    second fictitious letter from the IRS that indicated their account was cleared. In
    July 2002, the tax preparer was convicted of impersonating an IRS official and
    wire fraud. Sentencing is pending.

           Individual Threatens to Assault Law Enforcement Officers

    An individual was placed on 18 months Pre-Trial Diversion in June 2002 pursuant
    to a charge of threatening to assault federal law enforcement officers. A local
    police department informed TIGTA that an individual who had been interviewed
    regarding a threat against an IRS official threatened to shoot any federal agents
    who returned to the individual’s property.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002               Page 34
          Stolen Tax Information Used by Siblings in Identity Fraud

    In June 2002, siblings were arrested and charged with identity fraud. One
    sibling, while working for a temporary agency, was assigned to work for a tax
    service company. While working at the tax service company, the sibling pilfered
    tax records concerning hundreds of individuals and provided the confidential
    information to the other sibling, who used the stolen tax information to establish
    identities for the purpose of obtaining credit cards and bank accounts. The
    investigation identified more than $80,000 in purchases and cash advances on the
    fraudulently obtained credit cards.


              Con Artist Pled Guilty to Fraudulent Use of IRS Seal

    Several individuals invested in a business created by an individual purporting to
    be a multimillionaire businessperson. When the business began having serious
    financial problems, the investors demanded information as to the wealth and
    integrity of the businessperson. In response to these demands, the
    businessperson provided investors with a fraudulent letter indicating the owner’s
    net worth included in excess of $26 million that had been temporarily frozen by
    the IRS for a tax debt. The businessperson also provided investors with a
    fraudulent letter from the IRS that contained the IRS official seal and confirmed
    the funds were frozen due to a tax liability. In June 2002, the individual pled
    guilty to fraudulent use of a government seal and as part of the plea agreement
    was ordered to make restitution to the victims.


        Individual Pled Guilty to Fraudulent “Credit Repair” Scheme

    In June 2002, an individual pled guilty to perpetrating a fraudulent “Credit
    Repair” scheme, whereby the individual and a co-conspirator defrauded more
    than 7,000 victims of nearly $1 million. The individual provided brochures that
    advised customers how to apply to the IRS for an Employer Identification
    Number and to use that number on credit applications as a SSN. Also, the
    brochure falsely guaranteed to provide new, legal and unblemished credit rating.


                  Individual Convicted of Filing False IRS Forms
                              Against Public Officials

    In an effort to retaliate against judges, police officers, sheriffs, prosecutors, court
    officials and others involved in a prior conviction, an individual filed false copies
    of Report of Cash Payments Over $10,000 Received in a Trade or Business



TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002                Page 35
      (Form 8300) that claimed the public officials made money order and cash
      payments in amounts from $49,087 to more than $1,000,000. The
      individual also presented the IRS and two banks fictitious money
      instruments in an attempt to pay debts and tax obligations. In May 2002,
      with the assistance of IRS Criminal Investigation, the individual was
      convicted of harassing public officials by filing false IRS forms.

           Former CPA Sentenced for Fraud in Excess of $1 Million

      In June 2002, a former CPA was sentenced to 51 months in prison and
      ordered to pay more than $50,000 in fines and restitution for false
      statements, wire and mail fraud, and tampering with a witness. The CPA
      devised a scheme to defraud a client and numerous financial institutions by
      filing false power of attorney forms with the IRS and creating numerous
      fictitious IRS letters that were provided to a client and several lenders. The
      letters were purported to be official IRS correspondence and described how a
      client’s tax lien would be released through the acceptance of an offer in
      compromise. The client paid the former CPA approximately $39,000 as
      settlement of the tax lien which was embezzled by the former CPA.
      Additionally, the client unwittingly used the fictitious IRS letters to secure
      more than $1 million in loans that defaulted.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002         Page 36
                                                                                           T I G TA O R G A N I Z A T I O N




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002   Page 37
       T
                              IG T A ’ s O r g a n i z a t i o n a l
                                  Structure

       TIGTA provides independent oversight of IRS activities, the IRS Oversight
       Board, and the IRS Office of Chief Counsel. TIGTA is organizationally
       placed within the Department of Treasury but is independent of the
       Department and all other Treasury offices. TIGTA’s focus is devoted to all
       aspects of work related to tax administration.

       TIGTA’s primary organizational components are the Office of Audit (OA),
       and the Office of Investigations (OI). TIGTA’s Offices of Chief Counsel,
       Information Technology, and Management Services support OA’s and
       OI’s efforts.

           TIGTA’s audit and investigative activities are designed to:
           •       Promote economy, efficiency, and effectiveness in administering the
                   Nation’s tax system.
           •       Detect and deter waste, fraud and abuse in IRS programs and
                   operations.
           •       Protect IRS against external attempts to corrupt or threaten its
                   employees.




       A           uthorities

       TIGTA has all the authorities granted under the Inspector General Act of
       1978. TIGTA also has access to tax information in the performance of its tax
               1




       administration responsibilities and has the obligation to report potential
       criminal violations directly to the Department of Justice. The Inspector
       General (IG) and the Commissioner of Internal Revenue have established
       policies and procedures delineating responsibilities to investigate potential
       criminal offenses under the internal revenue laws.

       In addition, RRA 98 amended the Inspector General Act of 1978 to give
       TIGTA statutory authority to carry firearms and execute the provisions of the
       I.R.C. §7608(b)(2). These provisions include law enforcement authority to
       execute and serve search warrants, serve subpoenas, and make arrests.




TIGTA Semiannual Report to Congress      April 1, 2002 through September 30, 2002        Page 38
                                               Inspector
                                                General
                Chief
               Counsel




          Deputy Inspector General                          Deputy Inspector General
                  for Audit                                    for Investigations




             Assistant Inspector                                Assistant Inspector
                General for                                         General for
            Management Services                               Information Technology




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002         Page 39
                                        Deputy Inspector General
                                               for Audit




                  Assistant IG for Audit                         Assistant IG for Audit
               Headquarters Operations and                   Information Systems Programs
              Exempt Organizations Programs



                   Assistant IG for Audit                         Assistant IG for Audit
                   Wage and Investment                             Small Business and
                     Income Programs                               Corporate Programs




      Office of Audit

      T    he Office of Audit identifies opportunities to improve administration of
           the Nation’s tax laws by conducting comprehensive, independent
      performance and financial audits of IRS programs and operations to: assess
      efficiency, economy, effectiveness, and program accomplishments; ensure
      compliance with applicable laws and regulations; and prevent, detect, and
      deter fraud, waste, and abuse.

      The Audit program is comprised of reviews mandated by statute, as well as
      reviews identified through the annual planning process. The Annual Audit
      Plan describes audit responsibilities, audit focus and audit direction for the
      fiscal year. The planning process begins with independent risk assessments,
      which are designed to prioritize areas based on the greatest risks to the IRS.
      Major management issues, as well as specific areas of concern to Congress
      and the IRS Commissioner and the IRS Oversight Board, are considered as
      part of this planning process.

      OA is organized around IRS’ core business activities: Headquarters
      Operations and Exempt Organizations; Small Business and Corporate
      Programs; Wage and Investment Income; and Information Systems.
      Emphasis is also placed on the statutory coverage imposed by RRA 98, as
      well as on other statutory authorities and standards involving computer
      systems and financial management.




TIGTA Semiannual Report to Congress    April 1, 2002 through September 30, 2002             Page 40
                                      Deputy Inspector General for
                                            Investigations




              Assistant IG for                                           Assistant IG for
               Investigations                                             Investigations




                                             Assistant IG for
                                              Investigations




       Office of Investigations


       T    he Office of Investigations investigates activities related to fraud, waste,
            abuse and mismanagement concerning activities of the IRS and related
       entities (the IRS Oversight Board and Chief Counsel). OI also protects the IRS
       against attempts to corrupt or threaten its employees. This mission is
       accomplished through proactive and reactive investigative programs.

       OI is organized around 11 field offices which conduct investigations involving
       criminal wrongdoing and administrative misconduct by IRS employees.
       Headquarters includes other divisions that perform special functions and provide
       technical and investigative assistance. These divisions are:

       Operations Division provides OI with TIGTA guidance concerning all
       investigative matters. Examples of Operations’ responsibilities include:
       responding to congressional inquiries; liaison with federal law enforcement
       agencies, preparation of recurring statistical reports for internal and external use,
       complaints management, and reviews of divisions.

       Special Inquiries and Intelligence Division conducts complex, high profile
       investigations involving IRS senior management, the IRS Oversight Board, IRS
       Office of Chief Counsel, and TIGTA employees. This division includes two
       sections that focus on procurement fraud and counter-terrorism.




TIGTA Semiannual Report to Congress       April 1, 2002 through September 30, 2002          Page 41
           Strategic Enforcement Division is responsible for executing a proactive
           program to detect fraud in IRS operations, unauthorized accesses (UNAX) to
           IRS computer systems by internal users, and attempts to interfere with the
           security of IRS computers by external sources. SED combines the expertise of
           auditors, special agents, and computer programmers to form a successful
           investigative team.

           Technical and Forensic Support Division is responsible for implementing
           programs concerning Technical Services and the Forensic Science Laboratory
           (FSL). Each of these programs provides technical expertise throughout the
           development and the adjudication process of investigations.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002        Page 42
        K             udos

        It is through the hard work and dedication of its employees that TIGTA is
        able to accomplish its mission successfully. While the organization is




                                                                                                EXTERNAL RECOGNITION
        proud of all its employees, TIGTA would like to give special recognition
        to those individuals who have been honored by outside organizations.



                  Special Agents Recognized by U.S. Attorney’s Office

        Special Agents (SA) Philip Kuhn, Charles Venini, John Donnelly, Robert Ekey
        and Steven Geary — On June 21, 2002, the U.S. Attorney for the Eastern District
        of Virginia recognized the agents’ investigative work that resulted in the
        conviction of an individual who made numerous threatening and harassing calls
        to IRS and the Social Security Administration (SSA). The individual appealed
        the conviction, but the conviction was upheld by the United States Court of
        Appeals for the Fourth Circuit. The investigation was conducted jointly with
        Special Agents of SSA and the U.S. Secret Service in what the U.S. Attorney
        described as a “willingness to work together for justice.”

        Special Agent Denise Powers — On July 10, 2002, the U. S. of the Southern
        District of Florida awarded SA Powers the Outstanding Law Enforcement
        Officers Award for her participation in a multi-agency investigation. The
        investigation involved anti-government activists who filed fraudulent liens
        against and sent threatening correspondence to IRS employees.

        Special Agent Dennis Martel — On June 21, 2002, the U.S. Attorney for the
        Eastern District of Virginia honored SA Martel for his work on an investigation
        involving an individual who impersonated an IRS Special Agent. The
        investigation was conducted jointly with other federal agencies and led to the
        successful prosecution of the individual, who was sentenced to 78 months in
        prison and ordered to pay more than $233,000 in restitution.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002        Page 43
        Federal Bureau of Investigation Honors TIGTA Employee

    The FBI honored Belle Mills, an OI employee, on June 11, 2002, for her
    work on the highly publicized civil rights case of the 1964 church
    bombing in Birmingham, Alabama that killed four children. At the FBI’s
    request, Ms. Mills transcribed a tape recording of the co-conspirators
    talking about the bombing, including several parts of the tape that were
    barely audible. As a result of her assistance, according to the FBI, the
    jury found the subject guilty of the bombing.


                                Recognition by the PCIE

    The PCIE 2002 Awards Committee presented Awards for
    Excellence to two audit teams within OA’s Division of
    Headquarters Operations and Exempt Organizations
    programs. They were recognized for their work relating to
    terrorist attacks in the United States. Under the leadership
    and direction of Assistant Inspector General for Audit Dan
    Devlin and OA Director Nancy Nakamura, one audit team
    reviewed the Victims of Terrorism Tax Relief Act of 2001
    legislation and the IRS’ efforts to prepare for the
    processing of tax returns for those individuals killed as a
    result of terrorist attacks in Oklahoma City and on
    September 11, 2001, as well as the anthrax attacks                           Jeffery Jones, Theresa Berube and
    occurring on or after September 11, 2001 and before                           Thomas Seidell (left to right)
    January 1, 2002. The audit team consisted of Jeffrey
    Jones, Theresa Berube and Thomas Seidell.



                                                  Another audit team quickly reviewed taxpayer
                                                  accounts for individual taxpayers located in
                                                  the disaster and emergency areas for the
                                                  September 11, 2001 terrorist attacks. An
                                                  estimated 22.3 million taxpayers in the New
                                                  York and Washington, DC areas were
                                                  identified as affected taxpayers. The audit
                                                  team consisted of Tom Hawkins, Allen
                                                  Brooks, Julia Collins, Jeffery Smith,
                                                  Yolanda Brown, Andrew Burns, and
 Tom Hawkins, Allen Brooks, Julia Collins,
 Jeffery Smith, Yolanda Brown, and Andrew         Catherine Cloudt.
 Burns (left to right)




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002                       Page 44
                          Joint PCIE/ECIE Award for Excellence

        Agapi Doulaveris and Carlotta Blatchford were recognized for their efforts
        in planning and facilitating the IG Community’s 2002 Annual Conference,
        Challenges of a New World.


                                2002 PCIE Investigative Award

        Special Agent Jeffrey Gordon was recognized for his “outstanding
        performance, versatility, innovation and overall excellence” as a criminal
        investigator protecting federal tax administration from corruption.




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002       Page 45
TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002   Page 46
                                                                                           APPENDICES




TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002   Page 47
TIGTA Semiannual Report to Congress   April 1, 2002 through September 30, 2002   Page 48
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                 Appendix I – Office of Audit’s
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                     Statistical Reports
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               Audit Reports With
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               Questioned Costs
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345



                                                      4
                                                                  audit reports with questioned costs were
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                    issued during this semiannual
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                           reporting period.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345




                                                                                                                                                APPENDIX I
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               The term “questioned cost” means a cost that is questioned because of: (1) an alleged
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               violation of a provision of a law, regulation, contract, or other requirement governing
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               the expenditure of funds; (2) a finding that, at the time of the audit, such cost is not
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               supported by adequate documentation (“unsupported cost”); or (3) a finding that
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               expenditure of funds for the intended purpose is unnecessary or unreasonable. The
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               term “disallowed cost” means a questioned cost that management, in a management
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               decision, has sustained or agreed should not be charged to the Government.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     Reports with Questioned Costs            Number            Questioned
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                     Unsupported
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                         2
                                              (4/1/02  - 9/30/02)                 of               Costs
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                         Costs
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                       1      (In
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                              Report   Category               Reports             Thousands)       (In  Thousands)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    1. For which no management
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       decision had been made by the
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       beginning of the reporting period           1              $1,099                    $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    2. Which were issued during
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       the reporting period                        4                $726                   $82
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    3. Subtotals (Item 1 plus Item 2)              5              $1,825                   $82
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    4. For which a management decision
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       was made during the reporting period
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       - Dollar value of disallowed costs          1                 $66                    $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       - Dollar  value of costs not
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         disallowed                                1                 $83                   $82
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    5. For which no management decision
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       had been made by the end of the
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       reporting period.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       (Item 3 minus Item 4)                        3             $1,676                     $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    6. For which no management decision
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       was made within six months of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       report  issuance                            0                  $0                    $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               1See Appendix IV to identify involved audit reports or http://www.treas.gov/tigta.audit_reports.htm
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               2“Questioned Costs” include “Unsupported Costs.”
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                       TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                           Appendix I - 1
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   Report Recommendations
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   That Funds Be Put to
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   Better Use
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345



                                                6
                                                         reports with recommendations that funds be put to
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                       better use were issued
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                               during   this semiannual reporting period.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   The term “recommendation that funds be put to better use” means a
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   recommendation that funds could be used more efficiently if management took
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   actions to implement and complete the recommendation, including: (1)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   reductions in outlays; (2) deobligations of funds from programs or operations;
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   (3) costs not incurred by implementing recommended improvements related to
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   operations; (4) avoidance of unnecessary expenditures noted in pre-award
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   reviews of contract agreements; or (5) any other savings which are specifically
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   identified. The term “management decision” means the evaluation by
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   management of the findings and recommendations included in an audit report
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   and the issuance of a final decision concerning its response to such findings and
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   recommendations, including actions concluded to be necessary.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    Reports With Recommendations That Funds
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                  Be Put To Better Use                          Number
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                    (4/1/02 - 9/30/02)                             of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                     Amounts
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                        3
                                                    Report  Category                           Reports
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                 (In Thousands)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     1. For which no management decision has been
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         made by the beginning of the reporting
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                        period                                                      2                  $12,905
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     2. Which were issued during the reporting
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                        period                                                      6                  $54,134
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     3. Subtotals (Item 1 plus Item 2)                              8                  $67,039
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     4. For which a management decision was made
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         during the reporting period.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Dollar value of recommendations that were
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         agreed to by management.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                    7                  $27,040
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          Based on proposed management action
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          Based  on proposed   legislative action                   0                        $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Dollar value  of recommendations      that were
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         not agreed to by management                                1                  $39,999
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     5. For which no management decision has been
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         made by the end of the reporting period.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                        (Item  3 minus Item 4)                                      0                        $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     6. For which no management decision was
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         made within six months of issuance                         0                        $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   3See Appendix IV for involved audit reports.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                         Appendix I - 2
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Reports With Additional Quantifiable
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Impact on Tax Administration
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345



                              I
                                   n addition to questioned costs and funds put to better use, the Office of Audit
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     has identified additional measures that demonstrate the value of audit
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     recommendations on tax administration and business operations. These
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              issues are of interest to the IRS and Treasury executives, the Congress, and the
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              taxpaying public, and are expressed in quantifiable terms to provide further
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              insights to the value and potential impact of the Office of Audit’s products and
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              services. Including this information also advances adherence to the intent and
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              spirit of the Government and Performance Results Act to secure the best
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              performance and highest measure of accountability for the American people.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Definitions of these additional measures are:
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  # Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) that
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       is granted to taxpayers by law, regulation, or IRS policies and procedures. These
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       rights most commonly arise in the performance of filing tax returns, paying
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       delinquent taxes, and examining the accuracy of tax liabilities. The acceptance of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       claims for and issuance of refunds (entitlements) are also included in this category,
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       relating to instances when taxpayers have a legitimate assertion to overpayments of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       tax.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  # Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       need for, frequency of, or time spent on contacts, record keeping, preparation, or
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       costs to comply with tax laws, regulations, and IRS policies and procedures.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  # Increased Revenue: Assessment or collection of additional taxes.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  # Revenue Protection: Proper denial of claims for refund, including recommendations
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       that prevent erroneous refunds or efforts to defraud the tax system.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  # Taxpayer Privacy and Security: Protection of taxpayer financial and account
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       information (privacy). Processes and programs that provide protection of tax
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       administration, account information, and organizational assets (security).
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  # Protection of Resources: Safeguarding human and capital assets, used by or in the
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       custody of the organization, from inadvertent or malicious injury, theft, destruction,
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       loss, misuse, overpayment, or degradation. This measure will often be expressed as
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       a value of the entity or program affected by the issue(s) described in the audit
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       report.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  # Reliability of Management Information: Ensuring the accuracy, validity, relevance,
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       and integrity of data, including the sources of data and the applications and
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       processing thereof, used by the organization to plan, monitor, and report on its
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       financial and operational activities. This measure will often be expressed as an
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       absolute value (i.e., without regard to whether a number is positive or negative) of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       overstatements or understatements of amounts recorded on the organization’s
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       documents or systems.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                       TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                         Appendix I - 3
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               Reports With Additional Quantifiable
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               Impact on Tax Adminstration (continued)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345


                               T
                                          he number of taxpayer accounts and dollar values shown in this
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         chart  were derived from analyses of historical data, and are thus
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         considered      potential barometers of the impact of audit recommendations.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               Actual results will vary depending on the timing and extent of management’s
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               implementation of the corresponding corrective actions, and the number of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               accounts or subsequent business activities impacted from the dates of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               implementation. Also, a report may have issues that impact more than one
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               outcome measure category.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Reports
                                        ReportsWith
                                                 With  Additional
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                        Additional          Number
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       Quantifiable   Impact   onon
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                        Quantifiable    Impact                  of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Tax Administration
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                           Tax Administration               Reports      Number of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          (4/1/02  - 9/30/02)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                            (4/1/02  - 9/30/02)                 in        Taxpayer         Dollar Value
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Outcome     Measure
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                      a Accounts
                                      Outcome    Measure    Category       Category                        (In Thousands) Otherd
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                              Category
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                  Taxpayer
                                    TaxpayerRights
                                                RightsandandEntitlements
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                              Entitlements
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   atatRisk                                      13       734,556   b        $238,562           ee
                                                                                  13       734,556 b
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                        Risk                                                                  $238,562
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    ReductionofofBurden
                                  Reduction          BurdenononTaxpayers
                                                                 Taxpayers        88        266,331
                                                                                          266,331  bb                          ff
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                        c
                                    IncreasedRevenue
                                  Increased     Revenue                           77          6,681
                                                                                             6,681            $187,662c
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                             $187,662
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    RevenueProtection
                                               Protection
                                  Revenue                                         11                           $50,000
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                              $50,000
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    TaxpayerPrivacy
                                                PrivacyandandSecurity
                                                               Security                                                          g
                                  Taxpayer                                        22            517
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                               517                             g
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     Protection of Resources                       2                            $1,395
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    ReliabilityofofManagement
                                 Reliability         Management
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                                hh
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    Information
                                 Information                                      33          79,600
                                                                                             79,600             $9,900
                                                                                                               $9,900
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                aSee Appendix IV for identification of audit reports involved.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                bIn one report (Reference No. 2002-10-110) IRS management did not concur with TIGTA’s
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 recommendations and the associated measures concerning deceased terrorist victims, including a
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 reduction in taxpayer burden for an estimated 2,900 victims and increased protection of taxpayer
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 rights for 117 victims.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                cFor two reports (Reference Nos. 2002-30-156 and 2002-30-181) IRS management did not concur with
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 TIGTA’s calculation of increased revenue totaling $82.8 million.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                dSome reports contained “Other” quantifiable impacts besides the number of taxpayer accounts,
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 number of hours, and dollar value. These outcome measures are described in the footnotes, below.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                eOther measures of taxpayer rights and entitlements consist of 2,847 FOIA, PA and I.R.C. §6103
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 requests that were improperly withheld or not timely provided and 4,534 employees whose
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 performance documentation could contain violations concerning the use of enforcement statistics.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                fOther measures of taxpayer burden consist of 501,000 telephone calls in which the callers may have
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 received incorrect or incomplete answers. IRS management did not concur with the calculation of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 this measure.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                gOther measures of taxpayer privacy and security consist of 688 remittances not properly controlled.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                hOther measures of reliability of information consist of $9.9 million in underreported project costs and
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 144 Internal Revenue Manual Sections with prohibited references to Illegal Tax Protester
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                 designations.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                          Appendix I - 4
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                          Prior Period Reports
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345



                                             9
                                                       audit reports issued before April 1, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                       contained or identified questioned costs
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                       resulting from audits of open contracts.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           At the time the reports were issued, the value of those questioned costs could not
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           be determined, typically because there were open issues that were not resolved
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           until the contract ended. During this reporting period, the IRS provided TIGTA
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           with the value of the questioned costs for the reports listed below.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                               Reference No. Issued                            Report Title                                  Value of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                               Costs
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                           Disallowed
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2000-1C-002       10/13/1999       Audit of Fiscal Year 1997 Incurred Costs for TIR-92-0014        $99,748
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2001-1C-007       10/19/2000       Incurred Cost Audit TIRNO-95-C-00044                            $42,689
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2001-1C-029       12/19/2000       Incurred Cost Audit TIRNO-95-D-00062 FY 98                       $5,128
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2001-1C-032       12/19/2000       Incurred Cost Audit TIRNO-95-D-00062FY 97                      $27,453
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2001-1C-114       08/03/2001       TIRNO-92-C-00014     Incurred Cost Audit Fiscal Year 1998      $33,227
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2001-1C-115       08/01/2001       TIRNO-92-C-00014     Incurred Cost Audit Fiscal Year 1999      $62,379
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2001-1C-133       08/13/2001       Report on Audit of Specified Elements for Indefinite
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                   Delivery/Indefinite Quantity Proposal TIRNO-01-R-00005         $1,117
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2002-1C-013       10/23/2001       TIR-89-0056 and TIRNO-95-D-00062 Incurred Cost Audit
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                   for Fiscal Year Ended December 31, 1999                        $3,227
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              2002-1C-019       11/13/2001       TIRNO-95-D-00066: Incurred Cost Audit for
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                   Fiscal Years Ended June 30, 1998 and 1999                    $137,411
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          Total
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                               $412,379
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                       TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                         Appendix I - 5
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                                         Appendix I - 6
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                        Appendix II – Office of Investigation’s
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                Statistical Reports
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Investigative Results
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              April 1, 2002 – September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345




                                                                                                                                                APPENDIX II
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345


                              I
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    nvestigations
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                    Opened and Closed ...
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                      Total Investigations Opened                     3,061
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                      Total Investigations Closed                     2,430
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345


                              F        inancial
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       Accomplishments ...
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                             Embezzlement/Theft Funds Recovered                                  $892,015
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                             Court Ordered Fines, Penalties and Restitution $2,215,491
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                             Out-of-Court Settlements                                                    $0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002              Appendix II - 1
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
67890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   Investigative Results
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   April 1, 2002 – September 30, 2002
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456


                                   S      tatus of
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                          Closed Criminal Investigations ...
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                                          Employee        Non-Employee Total
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                          1
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                     Criminal   Referrals
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                      Referred - Accepted for Prosecution                      23                  164        187
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                      Referred - Declined for Prosecution                      390                 517        907
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                      Referred - Pending Prosecution Decision                    11                  86         97
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                         Total Criminal Referrals               424                767       1,191
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                       No Referrals            734                 635       1,369
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   1Criminal referrals include both federal and state dispositions.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456


                                   C        losed
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                             Dispositions ...
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                    2
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                                             Employee Non-Employee Total
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                     Guilty                                                     13                101        114
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                     Nolo-Contendere                                             0                   4          4
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                     Pre-Trial Diversion                                          6                 13         19
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                     Deferred Prosecution3
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                                                  2                  1          3
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                     Not Guilty                                                   1                  0          1
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                     Dismissed4                                                   0                 11          11
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                        Total Criminal Disposition               22                130         152
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    2Final criminal dispositions during the reporting period. This data may pertain to
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    investigations referred criminally in prior reporting periods and do not necessarily relate to the
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    investigations referred criminally in the Status of Closed Criminal Investigations table.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    3Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions,
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    and complies with certain conditions imposed by the court. Upon defendant’s completion of the
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    conditions, the court dismisses the case. If the defendant fails to fully comply, the court
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    reinstates prosecution  of the charge.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    4Court dismissed charges.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                     TIGTA Semiannual Report to Congress           April 1, 2002 through September 30, 2002                 Appendix II - 2
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Investigative Results
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              April 1, 2002 – September 30, 2002
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345


                              A       dministrative Dispositions
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       on Closed TIGTA Investigations ...
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                     5
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                               Removed, Terminated or Other                                          169
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                               Suspended/Reduction in Grade                                            68
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                               Oral or Written Reprimand/Admonishment                                121
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                               Closed - No Actions Taken                                             252
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                               Clearance Letter Issued                                               102
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                               Employee Resigned Prior to Adjudication                                 73
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                  Total Administrative Dispositons 785
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          5Final administrative dispositions during the reporting period. This data may
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          pertain to investigations referred administratively in prior reporting periods and
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          does not necessarily relate to te investigations closed in the Investigations Opened and
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                          Closed chart.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                     TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002                 Appendix II - 3
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
67890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   Investigative Results
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   April 1, 2002 – September 30, 2002
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    The following tables summarize the number of complaints received
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    by TIGTA and the status of the complaints.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456


                                  C         omplaints/Allegations Received by TIGTA ...
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                Complaints Against IRS Employees                             1,678
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                Complaints Against Non-Employees                             2,576
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                Number of Complaints/Allegations                             4,254
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456


                                  S       tatus of Complaints/Allegations Received by TIGTA ...
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                              Investigations Initiated                                           1,926
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                              In Process Within TIGTA6
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                                                                    66
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                              Referred to IRS for Action                                           102
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                              Referred to IRS for Information Only                                 915
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                              Referred to a Non-IRS Entity7                                         36
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                              Closed With No Referral                                              986
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                              Closed With All Actions Completed                                    223
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                           Total Complaints                      4,254
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                         6Complaints for which final determination had not been made at the end of the
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                         reporting period.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                         7A non-IRS entity includes other law enforcement entities or federal agencies.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                         Note: IRS made 109 referrals to TIGTA that would more appopriately be handled by IRS and,
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                         therefore, were returned to IRS. These are not included in the total complaints shown above.
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                 Appendix II - 4
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Allegations of Misconduct Against
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              IRS Employees
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           The following three tables document allegations of misconduct against individual IRS
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           employees that were recorded in the IRS Automated Labor and Employee Relations
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           Tracking System (ALERTS). Employee misconduct cases investigated by TIGTA have
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           been extracted and reported on the previous two pages. IRS management conducted
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                           the inquiries into the cases reflected in these tables.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345


                               A       llegations of Employee Misconduct
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                        Investigated by IRS Management ...
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                           Case Type
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                       Employee Tax
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                                 8
                                                                                  Administrative           Matter9            Total
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Inventory on April 1, 2002                         867              670               1,537
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Add: Cases Received                              2,821            1,167               3,988
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Less: Cases Closed                              (2,966)            (901)             (3,867)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Duplicates                                         (16)              (54)               (70)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Not Misconduct                                      (9)               (0)                (9)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Total Closures                                  (2,991)             (955)            (3,946)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                         Inventory on September 30, 2002                    697               882              1,579
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       8Administrative -- Any matter involving an employee in which management
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       conducted an inquiry into alleged misconduct.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       9Employee Tax Matter -- Any conduct matter that becomes of official interest
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                       involving an employee’s tax compliance.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002              Appendix II - 5
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
67890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   Allegations of Misconduct
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   Against IRS Employees
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                   (continued)
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456


                                   D        isposition of
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                            Employee Misconduct Cases
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                               Investigated by IRS Management ...
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                                                      Employee Tax
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Disposition                                     Administrative        Matter       Total
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Removal                                                   93             10         103
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Separation of Probationary Employees                    472               6         478
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Separation of Temporary Employees                          6              3           9
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Resignation/Retirement                                  236             19          255
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Suspensions                                             133              39         172
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Reprimands                                              271            151          422
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Counseling                                               892           511        1,403
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Alternative Discipline                                    52              9          61
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Clearance                                                113              8         121
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Closed Without Action                                   640             130         770
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Forwarded to TIGTA                                         7              0           7
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                    Not Otherwise Coded                                       51            15           66
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                                                                Total                     2,966            901        3,867
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix II - 6
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
56789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Allegations of Misconduct
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              Against IRS Employees
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                              (continued)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345


                             I    RS Summary of
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                   Substantiated § 1203 Allegations ...
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                                            Removals Penalty Mitigated
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Seizure Without Approval                                  0                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      False Statement Under Oath                                0                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Constitutional & Civil Rights Issues                      0                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Falsifying or Destroying Records                          1                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Assault or Battery                                        0                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Retaliate or Harass                                       0                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Misuse of 6103                                            0                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Failure to File Federal Tax Return                        7                46
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Understatement of Federal Tax Liability                   7                  5
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                      Threat to Audit for Personal Gain                         0                  0
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                                                             Total             15                51
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     Note: The cases reported as “Removals” and “Penalty Mitigated” do not reflect the
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     results of any third party appeal.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     Source: IRS Automated Labor and Employee Relations Tracking System (ALERTS)
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                                     and 1203 Review Board records.
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002              Appendix II - 7
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
 6789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345
67890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix II - 8
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
 7890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                            Appendix III – Statistical Reports – Others
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              Audit Reports With
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              Significant Unimplemented
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              Corrective Actions
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               The Inspector General Act of 1978 requires identification of significant recom-
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               mendations described in previous semiannual reports on which corrective
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               actions have not been completed. The following list is based on information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123




                                                                                                                                                APPENDIX III
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               from the IRS Office of Management Control’s automated tracking system
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               maintained by Treasury management officials.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                               Report
                                                                 ReportTitle
                                                                         Titleand
                                                                                and Recommendation
                                                                                     Recommendation
                                                                                               Report Sum-
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                   Report Title and Recommendation     Title
                                                                                                         Sum-and Recommendation Sum-
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                               Summary
                                                                                     mary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Issued
                                                        Issued                         mary                       mary Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                               Projected
                                 Reference
                                Reference
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           (F=Finding    Number,
                                                                (F=Finding           R=Recommendation
                                                                               Number,   R=Recommendation                 Projected
                                                                                                                             Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                     Reference                    (F=Finding     Number,
                                                                         Completion Date      (F=Finding
                                                                                          R=Recommendation Number,   R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                     Completion Date
                                  Number
                                 Number       Issued
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                Issued              Number, P=Plan Number)                             Completion   Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                         Completion   Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                      Number
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                093603         4/1999 The Internal Revenue Service Needs To Improve
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Treatment of Taxpayers During Office Audits
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-1, R-3, P-2. Require a separation of duties among               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         auditors who identify Midwest Automated Compliance
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         System (MACS) returns with potential tax changes,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         auditors who select MACS returns to be audited, and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         auditors who conduct the examinations.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-1, R-4, P-2. Ensure that all MACS data discs                    10/01/05
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         forwarded    from    the MACS    Development     Center  to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         district offices are properly accounted for and secured.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-2, R-4, P-1. Clarify the Internal Revenue Manual to             03/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         provide specific guidance for conducting
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         correspondence audits in district office settings.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                093009         6/1999 Review of the Electronic Fraud Detection System
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-2, R-1, P-3. Program the Electronic Fraud Detection              01/01/04
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         System   (EFDS)     application  audit trail to record  all
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         accesses to taxpayer data (including access to prior year
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         records, records assigned to specific tax examiners, and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         records assigned to other service center sites).
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-2, R-2, P-3. Design an audit trail application to record 01/01/04
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         access to taxpayer data through secondary sources such
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         as the database administrator, system query tools, or
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         contract vendors.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                  To view audit reports referenced in this appendix, click below:
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                       http://www.treas.gov/tigta/audit_reports.htm
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                      TIGTA Semiannual Report to Congress           April 1, 2002 through September 30, 2002             Appendix III - 1
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                     Report
                                                                         TitleTitle
                                                               Report  Report    Titleand
                                                                                and    andRecommendation
                                                                                      Recommendation  Report Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                           Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Issued
                                                         Issued                      Summary
                                                                               Summary                             SummaryProjected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                Projected
                                   Reference                                           Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                       ReferenceIssued (F=Finding
                                  Reference                      (F=Finding     Number,
                                                                          Number,         R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                       R=Recommendation                 Completion   Date
                                                                                                                             Projected
                                    Number                                 Completion
                                                                   (F=Finding     Number, Date   (F=Finding
                                                                                            R=Recommendation  Number,   R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                   Number Issued                    Number, P=Plan Number)                               Completion Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                  093009                 F-3, R-1, P-3. The EFDS Project Office should work                    01/01/04
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                  (continued)            with EFDS developers to ensure that the following
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         programming changes are made: The EFDS
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         application audit reports should be changed to include
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         a date range field and serviec center site field where
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         applicable.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-3, R-4, P-3. An assessment should be completed and 01/01/04
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         take into consideration the audit trail issues referred
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         to in the Memorandum of Understanding to improve
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         the usefulness of the EFDS application audit trail.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 1999-20-063 8/1999 The General Controls Environment Over the Internal
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Revenue Service’s Unisys 2200 Systems Can Be
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Improved
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-1, P-1. Standardize control settings for files
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          common to the Unisys 2200 production mainframes.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-3, R-1, P-1. Ensure all improperly owned files are
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          identified  and    assigned   an  owner   present  on  the  Unisys
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          2200 system at each service center, with the exception
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          of files required to be unowned, prior to movement of
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          that service center’s mainframe to the consolidated
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Unisys 4800 environment.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-3, R-2, P-2, P-3. Institute a policy requiring that all P-2: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          files owned by users being removed from the Unisys
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               P-3: 01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          2200   and  Unisys    4800   systems  either   be deleted  or
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          assigned to a user present on the system.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-4, R-1, P-1. Examine the possibility of tracking                   10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          individual   user   actions   while  using   the MASTER      user-
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          id on the Unisys 4800 system and, if possible,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          implement this feature as soon as feasible.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-6, R-1, P-1. Ensure that all required C-2
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          documentation       is prepared    for  the Unisys  4800.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-6, R-2, P-1. Develop and maintain a security
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                                12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          policy for the Unisys 4800.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 1999-10-072 9/1999 The Internal Revenue Service Needs to Improve
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Compliance With Legal and Internal Guidelines When
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Taking Taxpayers’ Property for Unpaid Taxes
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-3, P-1, P-2, P-3. Verify that all applicable items P-1: 12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          on the pre-seizure checklist are completed prior to                  P-2: 12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          approving the seizure and that all applicable items on               P-3: 12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          the seizure and post-seizure checklists under
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          development are completed.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                     TIGTA Semiannual Report to Congress           April 1, 2002 through September 30, 2002                   Appendix III - 2
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                   Report Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                   Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                      Issued (F=Finding Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              Reference                                                                                       Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                Number          Issued                  Number, P=Plan Number)                            Completion Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2000-30-015 12/1999           Consolidated Report on Opportunities for the Internal
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Revenue Service to Improve Service to Business Taxpayers
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-2, R-1, P-1. Expand the current Federal Tax Deposits 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             alert reengineering effort to re-evaluate the cost
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             effectiveness of the Program.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2000-10-033 2/2000            The Internal Revenue Service Can Further Reduce the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Burden on Taxpayers Who Disagree With Proposed
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Assessments
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-1, P-1. Send letters of proposed changes (30-Day 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Report) via certified mail, with return receipt
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             requested, when taxpayers do not respond to the initial
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             contact letter.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2000-30-059       3/2000      The Internal Revenue Service Can Improve the Estate Tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Collection Process
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-1, R-1, P-1. Assign to Service Center employees,                  12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            rather   than   to district office staff, the responsibility for
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            determining whether a bond or tax lien should be
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            secured.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-1, R-2, P-2. Review and approve all requests for                  10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            payment extensions. The review should ensure the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            estate has demonstrated reasonable cause before
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            granting the payment extension.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-2, R-1, P-1. Instruct managers and employees to                   11/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            conduct    a  100  percent  review  of all current estate  cases
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            to ensure active tax liens are input to the Automated
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Lien  System (ALS), tax liens and lien fees are properly
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            reflected   on the taxpayer accounts, and all tax liens are
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            released   on  accounts that have no tax obligation.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-2,  R-2,  P-1.   Develop procedures to periodically               07/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            reconcile   tax  liens on the  ALS   with  information  shown
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            on the taxpayer accounts.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-2, R-3, P-1. Clarify procedures to employees that all             11/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            estate  tax  liens  should  be recorded    on the ALS.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-3, R-4, P-1. Coordinate to develop a procedure to                 01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            identify  accounts    with  multiple  assessments   and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            collection statute dates to ensure partial abatements
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            occur when the earliest CSED is reached.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                      TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002                Appendix III - 3
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Report Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Report  Title
                                                          Report Titleand
                                                                        andRecommendation
                                                                            Recommendation   Summary
                                                                             SummaryReportSummary
                                                                                               Title and Recommendation Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                   Issued
                                               Issued    (F=Finding    Number,  R=Recommendation
                                                                                          (F=Finding                 Projected
                                                                                                      Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           (F=Finding
                                                           (F=Finding Projected
                                                                         Number,
                                                                         Number,  R=Recommendation
                                                                                   R=Recommendation                       Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                         Reference                               Number,    P=Plan  Number)                                Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                      Issued                     Completion
                                                                   Number,     Date
                                                                              P=Plan  Number)              P=PlanCompletion
                                                                                                                    Number)   Date Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                  Number,             Completion
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                          Number                                   Number,    P=Plan    Number)
                                            Issued                                                                     Completion Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                         2000-40-055        3/2000 The Internal Revenue Service Needs to Improve Its
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Coordinated Oversight of the Substitute for Return
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Process
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       F-2, R-1, P-1. Coordinate the development of a
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                            10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Substitute  for   Return  (SFR)   process to monitor   the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       future filing compliance of taxpayers with SFR tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       assessments regardless of which function processed the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       account.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                         2000-30-088        6/2000 Millions of Dollars in Internal Revenue Service Excess
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Collections Accounts Could Be Credited to Taxpayers
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                           03/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       F-2, R-1, P-4. Coordinate education efforts for
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       employees handling these accounts and develop
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       strategies for increasing taxpayer and practitioner
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       awareness of the law on the statute of limitations for
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       refunding and crediting payments related to overdue tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       returns.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                         2000-20-092         6/2000 Certifying the Security of Internal Revenue Service
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Computer Systems Is Still a Material Weakness
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       F-1, R-4, P-1. Ensure that IRS’ certification process               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       includes  follow-ups    with the  accrediting executives   prior
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       to the expiration of their systems security certification to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       ensure that they are aware that a new certification and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       accreditation is required.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       F-1, R-5, P-1. Ensure that all functional executives for            12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       individual   systems   are fully aware  of the  overall
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       certification and accreditation process.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       F-1, R-6, P-1. Centralize the process for identifying and           10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       tracking  all  information   systems  requiring   certification
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       and accreditation.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       F-2, R-1, P-1. Ensure that IRS’ certification process               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       includes  follow-ups    with the  accrediting  executives  to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       ensure that necessary information relevant to the official
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       accreditation is provided and to educate them on the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       importance of providing this information.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                 Appendix III - 4
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                  Report   Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Report  Title and  Recommendation    Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Report  Title and             Report
                                                                               Recommendation     Title and Recommendation Summary
                                                                                                  Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                 Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            (F=Finding    Number,
                                                                         Projected  R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                      Issued
                                                  Issued                                     (F=Finding               Projected
                                                                                                         Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              (F=Finding Number,      R=Recommendation
                                 Reference                    (F=Finding    Number,    R=Recommendation                    Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                            Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                     Number,
                                                                     CompletionP=Plan
                                                                                   Date Number)     Number,        Completion
                                                                                                              P=Plan  Number)  Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 NumberIssuedIssued                    Number,
                                                                       Number,   P=Plan
                                                                                  P=Plan Number)
                                                                                          Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                       Completion
                                                                                                                        Completion Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                2000-20-094 6/2000 A Comprehensive Program for Preventing and Detecting
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Computer Viruses Is Needed
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-1, P-1. Develop and implement IRS-wide
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                           10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          procedures detailing the frequency and steps to be
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          followed for reliably updating anti-virus software on
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          both networked and portable notebook computers.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-2, P-1. Establish controls for ensuring all               11/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          updates have been successfully accomplished.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-3, R-1, P-1. Develop a system for gathering                    11/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          information to help analyze and monitor the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          effectiveness of the program’s virus detection and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          prevention activities.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-4, R-1, P-1. Strengthen procedures for ensuring that 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          employees comply with the Internal Revenue Manual
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          requirements for preparing Virus Incident Reports.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                2000-30-111 8/2000 Improvements Are Needed in Resolving
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          In-Business Trust Fund Delinquencies to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Prevent Tax Liabilities From Pyramiding
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                            01/01/03
                                                          F-2, R-1, P-1. Use all collection tools,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          including enforcement tools and require
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          the filing of monthly, rather than
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          quarterly, returns.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                2000-30-120 8/2000 Expanding the Electronic Tax Law Assistance Program
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-1, R-1, P-1. To meet its Electronic Tax Administration 02/15/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           goals, the IRS needs to redesign the Electronic Tax Law
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Assistance (ETLA) program to leverage technology that
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           will provide enhanced access to tax information,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           maximize efficiency, and improve electronic customer
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           service.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                            10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-2, R-1, P-1. To effectively administer the rapid
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           growth   of taxpayer    demand,  economically    use resources,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           and design future enhancements of the program, IRS
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           needs to fully commit to the ETLA program by
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           converting it from a long-term research project to a
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           fully supported independent function.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-3, R-1, P-1. Until there are technological changes and 12/31/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           an organizational commitment, IRS needs to delay the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           marketing of the ETLA program. In the interim, IRS
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           should expand the ETLA program to additional call
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           sites to process the ever-increasing taxpayer demand for
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           this electronic service while reducing the need to use
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           more expensive Compliance function personnel.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                      TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002             Appendix III - 5
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Report Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Report  Title
                                                           Report Titleand
                                                                         andRecommendation
                                                                              Summary Report
                                                                              Recommendation      Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                    Title and Recommendation Summary
                                                                                                   Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                Reference          Issued (F=Finding
                                                           (F=Finding   Number,
                                                                         Number,   R=Recommendation
                                                                                      R=Recommendation                          Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                               Issued                                                                    Projected
                       Reference                            (F=Finding Projected
                                                                          Number,             (F=Finding
                                                                                      R=Recommendation     Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                       Reference  Number
                                 Number                           Number,     P=Plan    Number)                                Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                       Issued Issued               Number,
                                                                    Number, P=Plan
                                                                  Completion              Number) Number, P=Plan
                                                                                 Date Number)
                                                                               P=Plan                                    Number) Date Date
                                                                                                                            Completion
                                                                                                                      Completion
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                        Number                                                                                              Completion Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2000-30-130 9/2000 Opportunities Exist to Enhance the International Field
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Assistance Specialization Program
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-2, R-1, P-1. Improve the management information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                              10/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         system   by  linking   the   International   Field  Assistance
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Specialization Program (IFASP) indicator to specific
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         issues listed in the International Case Management
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         System.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-2, R-2, P-2. Ensure international examiners gain                   06/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         greater access to the IRS’ Intranet so that the IFASP can
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         accumulate and disseminate more information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         electronically, including an electronic referral form for
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         IFASP assistance.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2000-30-154 9/2000 Significant Improvements Are Needed in Processing Gift
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Tax Payments and Associated Extensions to File
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-1, R-1, P-1. Require that all balance due notices                   01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         generated for gift tax accounts be reviewed. Tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         examiners should be instructed to review the taxpayers’
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         corresponding individual income tax and gift tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         accounts to determine if the taxpayers’ gift tax payments
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         and extensions were correctly processed.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2000-30-162 9/2000 The Internal Revenue Service Needs to Better Address
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Bankruptcy Automatic Stay Violations
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-1, R-2, P-1. Provide additional computer                           10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         programming        enhancements       to improve   the  value of
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         litigation transcripts.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-1, R-5, P-1. Provide consistent guidelines to the SPF 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         units on how to notify the Examination function that the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         taxpayer is in bankruptcy.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-2, R-1, P-1, P-2. Request that the Automated                       P-1: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Insolvency     System   be   reprogrammed       so that  the actual  P-2: 01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         receipt  date   of the  case   can  be input  into  the system  to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         provide management with more accurate data on
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         timeliness of input of new case information.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-2, P-1, P-2. Ensure that all employees                       P-1: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          review the Potentially Invalid Taxpayer
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                              P-2: 01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          report  and   resolve   all  cases promptly    to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          ensure timely posting of the bankruptcy to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          the taxpayer’s account.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                     TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002                    Appendix III - 6
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Report  Title
                                                                      Titleand Recommendation
                                                                             and
                                                                             TitleRecommendation
                                                                                                  Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                               Report                         Report Title and Recommendation Summary
                                                                                                    Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                    Report         and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              (F=Finding    Number,
                                                                           Projected
                                                                (F=Finding Number,    R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Issued
                                                    Issued                                     (F=Finding
                                                                                        R=Recommendation                 Projected
                                                                                                            Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                   Summary                                     Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                       Number,    P=Plan  Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                Reference  Issued                     Completion
                                                                         Number,
                                                                (F=Finding           Date
                                                                                    P=Plan
                                                                              Number,       Number)    Number,
                                                                                         R=Recommendation            Completion
                                                                                                                 P=Plan Number)  Date
                                                                                                                            Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                           Completion    Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                Number           Issued                                                                 Completion    Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                         Number, P=Plan Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2001-30-014 11/2000 The Internal Revenue Service Does Not Effectively Use
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            the Trust Fund Recovery Penalty as a Collection
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Enforcement Tool
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-1, R-5, P-1. Make programming changes to the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                             02/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Automated      Trust  Fund  Recovery   System    to ensure
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            that delinquent tax returns are addressed when
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            making trust fund recovery penalty calculations.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-40-008 11/2000           Electronic Returns Were Processed Effectively
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-2, R-1, P-4. Develop national standards, goals,               07/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             and  procedural   guidance    to ensure consistent   and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             effective customer service is provided by all
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             processing site Help Desks.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2001-20-016 11/2000
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Employees’ Extensive Personal Use of the Internet
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Should Be Controlled
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-2, P-1. Mandate that all Internet-related                10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             activity logs  from   the IRS  firewall and   proxy
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             servers are retained and periodically reviewed to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             identify inappropriate accesses.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2001-10-026 12/2000            Additional Management Actions Are Needed to Ensure
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             the Timely and Successful Modernization of the Tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Exempt and Government Entities Division
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                             10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-3, R-1, P-2. Ensure that the risks associated with
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Tax  Exempt    and   Government    Entities  (TE/GE)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Division core processes that could result in
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             disruptions to customer service are identified and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             monitored. Also, all other TE/GE Division
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             workaround processes are to ensure that permanent
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             solutions are in place and working as intended.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2001-20-022 12/2000 Controls Over the Development of the Practitioner
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Secure Messaging System Prototype Should Be
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Improved
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            F-3, R-1, P-1. Require the contractor to break down              12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            the total hours worked by task on each status report
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            and by individual project the labor hours and other
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            costs billed on each payment voucher, report as
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            “current” (not “cumulative”) all costs that are
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            included on the payment voucher with an appropriate
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            comment when the costs apply to another accounting
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            period, and report the amount billed for each person’s
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            current hours.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                      TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002              Appendix III - 7
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Report
                                                            ReportTitle
                                                                    Titleand
                                                                           andRecommendation
                                                                                 Recommendation   Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Report    Title  and               Report
                                                                                Recommendation        Summary
                                                                                                     Title
                                                                                                    Summaryand Recommendation Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                    Issued (F=Finding     Number,   R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                Issued       (F=Finding
                                                             (F=Finding     Number,
                                                                         Projected
                                                                            Number,     R=Recommendation
                                                                                              (F=Finding
                                                                                       R=Recommendation                  Projected
                                                                                                            Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                        Reference
                         Reference                                                                                            Projected
                                                                                                                               Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                   Number                           Number,
                                                                      Number,
                                                                    Completion
                                                                      Number,   P=Plan
                                                                                  P=Plan
                                                                                   Date  Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                        Reference                                                           Number)    Number,       Completion
                                                                                                                 P=Plan Number)  Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                  P=Plan   Number)
                         Number
                          Number           Issued
                                        Issued                                                                            Completion    Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                           Completion
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                        2001-40-021        1/2001         Additional Efforts Are Needed for Improving Revenue
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Protection
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-1, P-1, P-2. Ensure that the Revenue Protection P-1: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Strategy (RPS) is a long-term strategic plan that is               P-2: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          coordinated      among    functional   areas.   The  RPS  should
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          recognize and take steps to defeat known fraud and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          abuse, as well as outline proactive measures for
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          attempting to eliminate potential areas of fraud and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          abuse.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-2, P-1, P-2. Establish measurable goals and                 P-1: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          objectives    to evaluate    the effectiveness   of the RPS.       P-2: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          The  goals   and   objectives   should   ensure   that revenue
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          is protected and taxpayer burden is reduced.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-1, P-1, P-2. Develop a process to measure the               P-1: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          effectiveness     of individual   initiatives on  reducing         P-2: 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          noncompliance, until the RPS is developed and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          implemented. Once developed, the RPS should also
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          contain provisions for measuring the effect of its
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          components on reducing noncompliance.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                         2001-10-027       1/2001        Improved Case Monitoring and Taxpayer Awareness
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Activities Can Enhance the Effectiveness of the Tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         Practitioner Disciplinary Proceedings Program
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         F-1, R-1, P-1. Upgrade the automated case                             03/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         management         system   to provide   more   timely  and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         accurate data on case activities and the use of program
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                         resources.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                        2001-20-043        2/2001         Electronic Signature Initiatives Could Be Better Defined
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          and Evaluated
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-1, P-1. Finalize IRS requirements for the use of 12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Personal Identification Numbers as alternative
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          signatures for electronically filed returns based on
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          evolving guidance and the draft IRS authentication
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          security policy and implementation guide.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-2, P-1. Ensure that all operational alternative               12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          signature    initiatives  comply    with  the  requirements.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                     TIGTA Semiannual Report to Congress           April 1, 2002 through September 30, 2002                  Appendix III - 8
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                       Report Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                               Report
                                                                 ReportTitle
                                                                          Titleand
                                                                                 andRecommendation
                                                                                      SummaryReport
                                                                                     Recommendation  Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                        Title and Recommendation Summary
                                                                                                       Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Issued
                                                      Issued    (F=Finding
                                                                   (F=Finding   Number,
                                                                                  Number,
                                                                               Projected R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                            R=Recommendation
                                                                                                 (F=Finding                Projected
                                                                                                               Number, R=Recommendation
                                                                                                                           Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Reference                           (F=Finding Number, R=Recommendation
                              Reference
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                                 Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              Reference  Number                           Number,
                                                                             Number,
                                                                          Completion P=Plan
                                                                                       P=Plan
                                                                                        Date Number)
                                                                                               Number)    Number,      Completion
                                                                                                                   P=Plan Number)
                                                                                                                       Completion    Date
                                                                                                                                     DateDate
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                Number
                               Number            Issued
                                              Issued                         Number, P=Plan Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                             Completion
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2001-30-052                    Program Improvements Are Needed to Encourage
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                 3/2001
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Taxpayer Compliance in Reporting Foreign Sourced
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Income
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-1, P-1. Ensure the prior recommendations               01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             are  implemented.       Establishing a formal   program
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             with goals, objectives, processes and measures could
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             help ensure that sufficient management attention is
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             devoted to improving the use of the Routine
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Exchange of Information Program for compliance.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-2, R-1, P-1. Identify the highest risk foreign              01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             sourced    income    documents   and use  them   to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             coordinate with tax treaty partners to positively
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             identify the U.S. taxpayers involved.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-3, R-1, P-1, P-2. Improve systems that process
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                           P-1: 01/01/07
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             data   the  IRS  receives  on foreign sourced   income.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                           P-2: 01/01/07
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2001-30-099        6/2001 Management Advisory Report: The Internal Revenue
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Service Could Reduce the Number of Business Tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Returns Destroyed Because of Missing Information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-1, P-2, P-3. Make necessary modifications to            P-2: 07/10/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             tax forms and instructions to ensure taxpayers                 P-3: 07/10/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             understand that their names, addresses, and taxpayer
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             identification numbers are required on both their tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             forms and payment vouchers.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-10-103        8/2001      Improvements Are Needed to Comply With Legal and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Procedural Requirements for Collection Statute
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Extensions and Installment Agreements
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              F-2, R-1, P-1. Develop a comprehensive plan for              10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              implementing the provisions of RRA 98 § 3461(c).
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              F-4, R-1, P-1. Provide training to applicable IRS
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                           07/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              employees and managers on the requirements and the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              method to compute installment agreements and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              collection statute extensions, consistent with the law
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              and IRS policy and procedures.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-20-146        8/2001 The Internal Revenue Service Is Making Progress, But
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Is Not Yet in Full Compliance With the Requirements of
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             the Clinger-Cohen Act
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-1, P-1. Prepare an overall strategy, plan and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             schedule to bring the IRS in full compliance with the 08/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Clinger-Cohen Act.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                      TIGTA Semiannual Report to Congress           April 1, 2002 through September 30, 2002             Appendix III - 9
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                               Report Title    and  Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Report
                                                              ReportTitle
                                                                      Titleand Recommendation
                                                                             and Recommendation   Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                             Report  Title and Recommendation Summary
                                                                                                    Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                              Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Issued(F=Finding     Number,   R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                           Reference               Issued      (F=Finding  Projected
                                                                              Number,         (F=Finding
                                                                                        R=Recommendation                Projected
                                                                                                            Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                Reference                  (F=Finding    Number,    R=Recommendation                    Projected
                                                                                                                              Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                           Reference   Number                         Number,
                                                                      Completion
                                                                        Number,  P=Plan
                                                                                    Date
                                                                                   P=Plan Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                           Number)     Number,      Completion
                                                                                                                P=Plan Number)   Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                            Number         Issued
                                              Issued                                                                Completion    DateDate
                                                                                                                          Completion
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 Number                             Number,     P=Plan   Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-30-117 8/2001 Letter Report: Additional Controls Are Necessary to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Ensure that All Businesses Are Classified by Their
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Principal Business Activity
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        F-1, R-1, P-1. Identify business taxpayers by their              11/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        principal  business    activity (PBA)  from   information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        provided on the Application for Employer Identification
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Number (Form SS-4) for entry to the IRS’ Masterfile.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        F-2, R-1, P-1. Implement processing controls to identify 11/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Individual Masterfile tax returns with invalid or
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        missing PBA codes, and Business Masterfile tax returns
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        with invalid PBA codes for research and correction
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        during processing.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-30-132 8/2001 Significant Tax Revenue May Be Lost Due to Inaccurate
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Reporting of Taxpayer Identification Numbers for
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Independent Contractors
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        F-2, R-1, P-1. Explore opportunities to supplement the            07/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        IRS’  future  Internet-based     Taxpayer  Identification
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Number (TIN) confirmation program with an
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        automated telephone-based TIN confirmation process
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        for those payers who do not have Internet access.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-10-147 9/2001 Compliance with Certain Taxpayer Rights Provisions
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Contained in the Internal Revenue Service Restructuring
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        and Reform Act of 1998 Could Be Improved
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        F-1, R-2, P-1. Complete the request for programming
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                          07/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        changes   for  the  Integrated   Data Retrieval   System,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Automated Collection System, and Integrated
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Collection System to print detailed interest and penalty
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        notices.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-30-158 9/2001 Some Individual Taxpayers are Inappropriately Receiving
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        Tax Credits Intended for Businesses that Provide Access
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        for Disabled Americans
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        F-1, R-2, P-1. Analyze the results of TIGTA’s computer 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        program; perform similar analyses of Tax Year 2000
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        returns; and develop a compliance approach to address
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                        the issue of taxpayers fraudulently claiming this credit.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix III - 10
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                    Report Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                               Report
                                                                 ReportTitle
                                                                         Titleand
                                                                                andRecommendation
                                                                                    Summary    Report
                                                                                    Recommendation   Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                       Title and Recommendation Summary
                                                                                                       Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Issued(F=Finding     Number,   R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                      Issued      (F=Finding  Projected
                                                                                 Number,         (F=Finding
                                                                                          R=Recommendation                  Projected
                                                                                                              Number, R=Recommendation
                                                                                                                              Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              Reference
                                Reference                       (F=Finding Number, R=Recommendation
                              Reference  Number                                     P=Plan  Number)                               Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                         Number,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                         Completion
                                                                            Number,    Date
                                                                                      P=Plan  Number)    Number,        Completion
                                                                                                                   P=Plan   Number)
                                                                                                                          Completion DateDate
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Number
                                Number           Issued
                                              Issued                      Number, P=Plan Number)                              Completion    Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2001-30-164       10/2001 The Internal Revenue    IssuedService Has an Opportunity to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Relieve  Considerable     Taxpayer Burden Involving the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Estimated    Tax   Penalty
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-1, P-1. Evaluate the design and clarity of                 02/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Underpayment       of Estimated  Tax  by Individuals,  Estates
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             and Trusts (Form 2210) and its instructions in order to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             alleviate the excess taxpayer burden.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-2, P-1. Coordinate any redesign of                         10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Form   2210    with  both  the practitioner and   tax software
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             communities.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2002-30-042       12/2001 The Internal Revenue Service Has Made Some Progress,
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             but Significant Improvements Are Still Needed to Reduce
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Errors in Manual Interest Calculations
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-1, P-1. Limit the calculation of restricted interest 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             to centralized staffs within the various functions and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             locations of the IRS. Consider creating a specific
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             command code to be used on the IRS’ Integrated Data
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Retrieval System (IDRS) for entering restricted interest.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-2, P-1. Establish a national quality review                05/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             process that includes all restricted interest cases.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-3, P-1. Establish training that must be                    10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             completed    before   an employee   can  work   restricted
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             interest cases.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-1, R-4, P-1. Authorize a standard interest                      10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             computation      tool that  would be used  by  all employees
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             working restricted interest cases.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             F-2, R-1, P-1. Explore all available options to provide           10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             the technology and programming necessary to allow
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             more interest calculations to be performed by computer.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              GPRA: Criminal Investigation Can Improve Its
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2002-10-009       1/2002
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Performance Measures to Better Account for Its Results
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              F-1, R-1, P-1. Include the appropriate information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              from the National Operations Annual Report that
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              presents the outcomes of Criminal Investigation’s (CI)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              investigative efforts.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              F-1, R-3, P-1. Include measures that will report the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              results of major programs within CI.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              F-2, R-1, P-1. Establish a process by which the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               10/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Criminal Investigation Management Information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              System (CIMIS) data will be verified and validated.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              F-2, R-2, P-1. Ensure that audit trail requirements are 01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              met and documented, and that an Information System
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Security Officer is assigned to review audit trail data.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              F-4, R-1, P-1. Include the Department of Justice Tax
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                               10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                              Division attorneys in the customer satisfaction surveys.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                      TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002               Appendix III - 11
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                 ReportReport    Title and
                                                                           Title
                                                                           Reportand
                                                                                   Title andRecommendation
                                                                                      Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                      Report Title and Recommendation
                                                                                             Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                             Issued                    Summary
                                                                                 Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                Issued            Projected                         SummaryProjected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                         Summary
                                      Reference
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                           Reference
                                   Reference                        (F=Finding
                                                             (F=Finding           Number,
                                                                            Number,
                                                                              Completion    R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                       R=Recommendation
                                                                                            Date  (F=Finding   Number,     ProjectedDate
                                                                                                                         Completion
                                                                                                                         R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                      (F=Finding Number, R=Recommendation
                                       Number        Issued
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                     Number       Issued               Number, P=Plan Number)                          Completion Date
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                    2002-30-050 2/2002 Significant Efforts Have Been Made to Combat
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Abusive Trusts, but Additional Improvements Are
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Needed to Ensure Fairness and Compliance
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Objectives Are Achieved
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-2, R-1, P-1. Ensure the Abusive Trust Program                  10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           consistently applies the accuracy-related penalty in
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           accordance with IRS policy, in order to help ensure
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           fair and equitable taxpayer treatment.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-2, R-2, P-1. Provide examiners with formal                     10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           guidance    on   the appropriate    application of  the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           accuracy-related penalty, in order to help ensure
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           itsonsistent application.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-2, R-3, P-1. Request that the Advisory Opinion                 10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           issued by the Office of Chief Counsel in the former
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Western Region be reviewed by the IRS’
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Headquarters Office of Chief Counsel, in order to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           help ensure     fairness to all taxpayers and
                                                                      Issued
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           compliancewith       the provisions of I.R.C. §6110
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           requirements.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-3, R-1, P-1. Identify compliance measures that                 12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           will determine     not only   changes  in the abusive   trust
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           compliance levels, but also whether the taxpayer
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           behavior has actually changed.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-4, R-1, P-1. Develop a system to capture the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                            10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           results of Form 1041 examinations that would
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           provide management with information on emerging
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           abusive trust issues, further noncompliance and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           allocate resources to maximize audit results.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                   2002-30-055 2/2002 Federal Requirements Need Strengthening at Lockbox
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Banks to Better Protect Taxpayer Payments and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Safeguard Taxpayer Information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-1, R-2, P-1. Consider involving the Office of                  11/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           Security   in performing     periodic security  reviews   at
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           each lockbox bank to assist in identifying security
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           weaknesses.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           F-1, R-3, P-1. Develop test data for use in testing              01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           disaster  recovery    plans  at the contingency   sites and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                           ensure that tests are conducted as soon as possible.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                     TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002                 Appendix III - 12
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                  Report Title and Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                            Report
                                                              ReportTitle
                                                                     Titleand
                                                                            andRecommendation    Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                 Summary ReportSummary
                                                                                 Recommendation     Title and Recommendation Summary
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                       Issued(F=Finding    Number,   R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                           Reference               Issued      (F=Finding Projected
                                                                             Number,          (F=Finding
                                                                                        R=Recommendation                 Projected
                                                                                                           Number, R=Recommendation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Reference                      (F=Finding Number, R=Recommendation                          Projected
                                                                                                                               Projected
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                           Reference  Number                          Number,
                                                                     Completion
                                                                        Number,  P=Plan
                                                                                    Date
                                                                                   P=Plan Number)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                           Number)    Number,        Completion
                                                                                                                P=Plan   Number)  Date
                                Number         Issued
                                           Issued
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                            Number                                     Number, P=Plan Number)                          Completion
                                                                                                                           CompletionDateDate
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2002-30-062 3/2002 The Internal Revenue Service Continues to Owe Millions
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          of Dollars in Interest to Taxpayers with Frozen Refunds
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-1, P-1. Modify the IRS’ computer system to                   01/01/04
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          systemically   release  the  newly established   Million  Dollar
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Freeze for credit balances that fall below the $10 million
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          threshold.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-2, P-1, P-2. Establish indicators on key                     P-1: 01/01/04
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          computer screens and generate periodic notices as alerts P-2: 01/01/04
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          for employees to review accounts with Million Dollar
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Freeze and take appropriate resolution actions.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-1, P-1, P-2. Coordinate efforts to provide                   P-1: 01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          updated   training   for employees   that manually    initiate      P-1: 01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          refunds.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               2002-30-071 3/2002 Computer Programming Can be Used to More Effectively
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Stop Refunds on Illegal Claims for Reparations Credits
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-1, P-2. Ensure that appropriate employees from
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                              01/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          the Frivolous Return Program are given access to and
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          training regarding the computer Command Code under
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          development for the Criminal Investigation function.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          The Internal Revenue Service’s Levy Process Can Be
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Improved to Ensure Compliance With the Internal
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          Revenue Code
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                              2002-10-078 3/2002 F-1, R-1, P-2. Take additional actions to ensure that
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                             07/01/03
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          open levies are identified and released as appropriate
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          when Automated Collection System (ACS) personnel
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          close a case Currently Not Collectible (CNC) Hardship.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-2, P-1. Ensure that revenue officers review                 12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          available information to properly identify levies issued
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          by ACS personnel and ensure the levies are
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          appropriately released prior to closing a case CNC
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          (Hardship).
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-3, P-2. Before approving a CNC (Hardship)
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                             12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          case closure,   the case  files should be reviewed   to
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          ensure levies are released, if appropriate, in compliance
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          with the Internal Revenue Code. The revenue officer
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          should document in the case history the reason why a
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          levy was closed rather than released.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-1, R-4, P-1. Research the 46 cases in which
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                             10/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          insufficient levy data was available to ensure the IRS is
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          complying with I.R.C. § 6343.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          F-2, R-2, P-1. Ensure that a hardship determination is
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                                                                                             12/01/02
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                                          made before approving cases closed CNC.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                      TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix III - 13
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
34567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                          Statistical Reports:
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                          Others
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Access to Information
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                The Inspector General Act of 1978 requires IGs to report on unreasonable refusals of
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                information available to the agency that relate to programs and operations for which the
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 IG has responsibilities.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                As of September 30, 2002, there were no instances where information or assistance
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 requested by OA was refused.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Disputed Audit Recommendations
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                The Inspector General Act of 1978 requires IGs to provide information on significant
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                management decisions in response to audit recommendations with which the IG disagrees.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                As of September 30, 2002, TIGTA did not issue a report where a significant
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 recommendation was disputed.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Revised Management Decisions
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                The Inspector General Act of 1978 requires IGs to provide a description and explanation of
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                the reasons for any significant revised management decisions made during the reporting period.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                As of September 30, 2002, no significant management decisions were revised.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Audit Reports Issued in the Prior Reporting Period With No
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Management Response
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                The Inspector General Act of 1978 requires IGs to provide a summary of each audit report
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                issued before the beginning of the current reporting period for which no management
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                response has been received by the end of the current reporting period.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                As of September 30, 2002, there were no prior reports where management’s response
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 was not received.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                               Review of Legislation and Regulations
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                The Inspector General Act of 1978 requires IGs to review existing and proposed legislation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                and regulations and to make recommendations concerning the impact of such legislation
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                or regulations.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                TIGTA’s Office of Chief Counsel reviewed 142 proposed legislation and regulations
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                                 during the six-month reporting period.
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix III - 14
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
 4567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                         Appendix IV – Audit Products
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              Audit Products
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              April 1, 2002 - September 30, 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                               Inspector General Congressional Testimonies
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                               April 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-0T-088 Hearing Before the Committee on Finance United States Senate (4/11/02)




                                                                                                                                                APPENDIX IV
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-0T-089 Hearing Before the Committee on Government Efficiency Financial
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Management and Intergovernmental Relations Committee on
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Government Reform U.S. House of Representatives (4/15/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              May    2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-0T-096 Joint Hearing Before the Subcommittee on Government Efficiency Financial
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Management and Intergovernmental Relations and Subcommittee for
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Technology and Procurement Policy Committee on Government Reform U.S.
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                House of Representatives (5/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-0T-099 Joint Hearing Before the Committees of the United States Senate and United
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                States House of Representatives (5/14/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                               Audit Reports
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              April 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-1C-081 Concurrent Adequacy and Compliance of Revised Disclosure Statement 02-2,
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Dated October 30, 2001 (4/8/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-1C-083 Internal Revenue Service Cost Proposal Evaluation of
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 TIRNO-01-R-00022 (4/8/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-20-073 Verification of the Treasury Communications System Invoices Should Be
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Improved (Questioned Costs: $66,375; Funds Put to Better Use: $982,906)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 [4/9/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-20-064 Controls Over the Excise Files Information Retrieval System Web Site Should
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Be Improved to Better Deter and Detect External Attacks (4/17/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-40-086 Management Advisory Report: Taxpayers Continue to Receive Incorrect
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Answers to Some Tax Law Questions (4/23/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-20-082 System-Level Controls Over the Detroit Computing Center Mainframe
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Computers Are Generally Adequate, But Some Improvement Is Needed
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                (Taxpayer Privacy and Security and Reliability of Information: 212 million
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                accounts at risk.) [4/24/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-30-066 Management Advisory Report: Improvements Have Been Made in Processing
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Gift Tax Payments and Associated Extensions to File (4/29/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                               To view audit reports referenced in this appendix, click below:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                       http://www.treas.gov/tigta/audit_reports.htm
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      TIGTA Semiannual Report to Congress          April 1, 2002 through September 30, 2002             Appendix IV - 1
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    May 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦ 2002-20-084 Critical Processes and Dependencies Need to Be Addressed to Avoid
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Further Delays in Deployment of the Enterprise Systems Management
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Project (5/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦ 2002-40-087 Telephone Numbers and Addresses for Local Internal Revenue Service
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Offices Have Not Been Published in Telephone Books (Taxpayer
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Burden:   9 million taxpayers received assistance from local IRS Offices
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      in Fiscal Year 2001.) [5/3/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦2002-40-090 Appropriate Changes Were Made to Tax Products; However,
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Improvements Are Needed for Tracking the Changes (5/7/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦002-10-094       Management Advisory Report: The Internal Revenue Service Needs to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Implement Policies and Procedures to Ensure Compliance With the Rural
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Development Act of 1972 (5/9/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦ 002-10-085      Increased Monitoring of the Low-Income Taxpayer Clinics Is Needed to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Ensure Compliance with the Grant Terms and Conditions (Questioned
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Costs: $83,328; Protection of Resources: $294,841 of expenses that
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      could not be verified as supporting the program.) [5/10/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦2002-30-091 Management Advisory Report: The Small Business/Self-Employed
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Division’s Collection Process Improvement Effort Will Not Adversely
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Affect Internal Controls, but Potential Risks Still Exist (Taxpayer Rights
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      and Entitlements: 2,487 FOIA, PA, and Section 6103 requests were
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      improperly withheld or not provided timely.) [5/17/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦ 2002-10-093 Actions Should Continue to Be Taken to Improve Compliance With the
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Freedom of Information Act and Related Procedures (5/20/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦ 2002-10-097 The Internal Revenue Service Should Continue to Develop Its Measures
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Program to Ensure That Its GPRA Measures Cover All of the Major
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Components of Tax Administration (5/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦2002-10-104 Management Advisory Report: Project Management Techniques
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Would Help in Managing Risks For the Increased Employee Plan
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Determination Letter Workload (5/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦ 2002-20-100 The Management of Information Systems Maintenance Contracts Can
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Be Improved (Funds Put to Better Use: $1.18 million; Reliability of
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Information: Maintenance contracts value at $257 million may not be
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      recorded on the tracking database.) Note: Monetary benefit projected
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      over a three-year period. (5/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦2002-30-103 The Internal Revenue Service Needs to Ensure Remittance Processing
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Controls Are Being Followed (5/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    ♦ 2002-10-101 Management Advisory Report: Two Violations of the Fair Debt Collection
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Practices Act Resulted in Administrative Actions (Fiscal Year 2002)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      [5/31/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                   ♦ 2002-10-108 Management Advisory Report: Review of Lost or Stolen Sensitive Items
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      of Inventory at the Treasury Inspector General for Tax Administration
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      (5/31/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix IV - 2
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                               June 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-30-106 The Internal Revenue Service Should Modify Its Federal Tax Lien Practices to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Treat Taxpayers More Equitably and Better Protect the Government’s Interest
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 (Increased Revenue/Revenue Protection: $8.9 billion in potential collections at
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 risk because liens were not filed to protect the government’s interest.) Note: It
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 should be recognized that some liabilities would be collected without liens,
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 while others would not be collected even if liens are filed. [6/5/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-30-095 Analysis of Notice Error Trends May Identify Systemic and Procedural Causes for
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Erroneous Notices and Refunds (Reliability of Information: 105,061 voided
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 notices were not included in the population.) [6/7/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-10-105       Better Procedures Are Needed to Ensure Lien Payoff Letters Are Properly
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Authorized and Accurately Calculated (Taxpayer Burden: 129 taxpayers
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 received  incorrect lien payoff letters; Taxpayer Privacy and Security: 517
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 taxpayers   that may not have authorized release of lien payoff information to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 third parties.) [6/10/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-30-092
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Management Advisory Report: The Internal Revenue Service’s Response to the
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Falling Level of Income Tax Examinations and Its Potential Impact on Voluntary
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Compliance (6/12/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-10-107 Controls Need to Be Strengthened Over the Internal Revenue Service’s Taxable
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Travel Reporting (6/19/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-10-098 Improvements Are Needed to Ensure That Employee Plans Return Information Is
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Timely Received and That Returns Are Properly Processed and Adequately
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Safeguarded (Taxpayer Burden: 19 taxpayers received erroneous notices;
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Taxpayer Privacy and Security: 688 remittances not properly controlled.)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 [6/21/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-20-112 Management Advisory Report: Progress Has Been Made in Establishing a Secure
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Modernization Infrastructure; However, Continuing Risks Could Impact Timely
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Deployment of Modernization Projects (6/24/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-40-113 Management Advisory Report - Taxpayers Continue to Receive Incorrect Answers
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 to Some Tax Law Questions (6/26/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦ 2002-40-116 Advance Refunds Were Accurately Calculated and Issued to Eligible Taxpayers,
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                But Some Undelivered Refunds Were Unnecessarily Delayed (Funds Put to Better
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Use: $367,000; Taxpayer Rights and Entitlements: 34,000 taxpayers had refunds
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                delayed an average of 8 weeks.) Note: Monetary benefit projected over a five-
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                year  period. (6/26/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-20-117
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Improvements Made But Actions Still Needed to Prevent Computer Virus
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Infections (6/27/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-40-111
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 E-File Providers Are Not Adequately Screened (Taxpayer Privacy and Security:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 29 million electronic tax returns were transmitted by preparers who were not
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 subject to an effective screening procedure.) [6/27/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-20-109 Management Advisory Report: The Configuration of a Security and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Communications System Backup Computer Environment Is Not Compliant With
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Internal Revenue Service Requirements (6/28/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002              Appendix IV - 3
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                   July 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-20-121 Processes to Effectively Manage the Development of the Custodial
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Accounting Project Are Improving (6/28/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-10-118 Management Advisory Report: No Improprieties Were Identified in the
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Contract Actions Related to a Conflict of Interest Allegation Made Against
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     the Commissioner of the Internal Revenue Service (7/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-20-122 Management Advisory Report: Most Taxpayer Communication
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Enhancements Planned for 2002 Will Be Delivered, Although Some Are
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Later Than Originally Expected (7/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-30-114 Erroneous Refunds May Be Issued Without a Program to Verify Foreign
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                    Partners’ Withholding Claims (7/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-30-115 The Delinquent Tax Return Investigation Program for Employment Taxes
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                    Within the Collection Field Function Can Be Improved (7/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-119 Management Advisory Report: Progress Is Being Made Toward Providing
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                    Specialized Toll-Free Telephone Services to Small Businesses and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                    Self-Employed Taxpayers, but Some Challenges Still Remain (7/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-120 Management Advisory Report: The Internal Revenue Service Needs a
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Reliable Measure of the Quality of Electronic Tax Law Assistance
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Provided to Small Businesses and Self-Employed Taxpayers (7/5/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-125 The Internal Revenue Service Does Not Always Address Subchapter
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     S Corporation Officer Compensation During Examinations (Increased
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Revenue/Revenue       Protection: $648,065.) [7/5/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-30-127 Most Security Controls Were Adequate at the New Lockbox Facility in
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Dallas, But Some Improvements Are Needed (Protection of Resources:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Over $70.7 billion in payments at risk.) [7/5/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-20-124 The Latest Update to the Enterprise Architecture Improves on Previous
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Versions, But Processes to Develop Future Updates Could Be Improved
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     (7/9/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-20-128 Management Advisory Report: Comprehensive Measures for Interim
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Business Systems Modernization Status Reporting Are Needed (7/10/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-126 Most Security Controls Were Adequate at the New Lockbox Facility in
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                    Cincinnati, But Some Improvements Are Needed (Protection of Resources:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                    $39.5 billion in payments at risk.) [7/10/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-10-102 To Provide Quality Service, the Government Entities Organization First
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Needs to Identify Its Customers (7/24/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-30-129 Management Advisory Report: The Internal Revenue Service Provided
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     High Quality Service to Taxpayers Calling the Toll-Free Line for Tax
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Forms (7/24/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-20-136 Management Advisory Report: Efforts to Consolidate Information
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Technology Services Staff Continue to Need Attention (7/29/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-30-141 The Internal Revenue Service Successfully Processed Schedules K-1 for
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Its Matching Program, However, Tax Form Changes Would Reduce
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Unnecessary Notices to Taxpayers (7/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix IV - 4
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              August 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-1C-130 TIRNO-95-D-00062 Incurred Costs Audit For Fiscal Year Ending
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                December 31, 1998 (8/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-1C-131 TIR-95-D-00065 Report on Contract Audit Closing Statement Task Order
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Numbers 0009, IR-95-NO-4646, and 0021 (8/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-1C-132 TIRNO-94-D0089, TIRNO-94-D-00890005, TIRNO-94-D-00890006,
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                TIRNO-D-00890007, TIRNO-D-00890008, TIRNO-D-00890010 Report of
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Incurred Cost Submission For Fiscal Year 1998 and 1999 (8/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-1C-133 TIRNO-99-D-0005 Report on Compliance with Requirements Applicable to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Major Programs and on Internal Control Over Compliance in Accordance with
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                the Office of Management and Budget Circular A-133 Fiscal Year 2001
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                (Questioned Costs: $3,237) [8/2/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-1C-134 TIRNO-95-D-00067 Report on Examination of Direct And Indirect Costs and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Rates For Fiscal Year Ended December 18, 1998 (8/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-20-146
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Management Advisory Report: Progress Has Been Made in Developing
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Transition to Support Guidance for Modernization Projects (8/2/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-40-135
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Compliance With Lien Notice Requirements Has Not Been Achieved (Taxpayer
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Rights   and Entitlements: 29,219 Lien Notices with potential violations of
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                taxpayer   rights.) [8/2/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-40-142 Despite Some Problems, the Internal Revenue Service Properly Identified
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Returns With Rate Reduction Credit Errors During the 2002 Filing Season
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                (Increased Revenue/Revenue Protection: $50 million; Taxpayer Burden: 35
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                million taxpayers whose advanced refund information was not available by
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                telephone.) [8/2/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-20-145 Persistent Security Weaknesses at Internet Connections Can Be Traced to a
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Lack of Policies and Procedures (8/5/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-10-110       Management Advisory Report: Actions Have Been Taken to Prepare for the
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Processing of Deceased Terrorist Victims’ Income Tax Returns, but Additional
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Work Is Necessary (Taxpayer Rights and Entitlements: 117 taxpayers that
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 could have been identified; Taxpayer Burden: 2,900 families that could have
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 been provided service.) [8/6/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-40-137
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 The Quality of Toll-Free Tax Law Assistance During the 2002 Filing Season
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Improved; However, More Can Be Done to Improve Quality and Enhance
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Service (Taxpayer Burden: 501,000 telephone calls in which taxpayers may
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 not have received complete and accurate information.) [8/6/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-10-140 The Internal Revenue Service Responded to the Needs of Surviving Individual
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Taxpayers Following the September 11, 2001, Terrorist Attacks (Reliability of
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Information: 79,600 accounts in which computer records did not contain the
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                disaster status indicator.) [8/8/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002              Appendix IV - 5
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                   August 2002 (continued)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-1C-152 Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      2001 Incurred Costs (8/13/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                    2002-20-138       The Selection, Monitoring, and Management of Systems Improvement
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Projects, Such as the Print Consolidation Project, Need Modification
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      (Taxpayer Privacy and Security: 200 million taxpayers’ account
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      information at risk; Reliability of Information: $9.9 million in project
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      costs were underreported.) [8/13/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-40-144         Computers Used to Provide Free Tax Help and That Contain Taxpayer
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Information Cannot Be Accounted For (Taxpayer Privacy and Security:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       700,000 taxpayer e-filed returns at risk.) [8/13/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-139
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      The Internal Revenue Service Worked Quickly to Assist Business
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Taxpayers Needing Disaster Relief After September 11, 2001 (8/15/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Additional Improvements Will Better Focus the Employee Plans
                                  ♦2002-10-143
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Function’s Examinations Workplan on Areas That Identify and Correct
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Noncompliance (8/16/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-10-151
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      The National Taxpayer Advocate Has Taken Significant Steps to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Implement Selected Provisions of the Internal Revenue Service
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Restructuring and Reform Act of 1998 (8/16/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-10-154        Expansion of the Workforce Planning Process Would Increase
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Opportunities to Identify and Address Staffing Risks (8/20/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-1C-153
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      TIRNO-93-C-0026 Incurred Costs and Indirect Expense Rates Audit
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Fiscal Year 2000 (8/21/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-10-150
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       The Criminal Investigation Function Provides Adequate Guidance to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Field Offices for Money Laundering Investigations (8/21/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-40-155        The Internal Revenue Service Continues to Comply With the Law When
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Seizing Taxpayers’ Property (8/21/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-40-159        Compliance With Statutory Requirements for the Disclosure of Collection
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Information to Joint Filers Cannot Be Determined (8/21/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-10-158
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Management Advisory Report: Appeals Can Enhance the Usefulness of
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Appeals Quality Measurement System Results (8/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-40-161
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Management Advisory Report: Progress Was Made to Provide
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Taxpayers With Correct Answers to Tax Law Questions (8/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix IV - 6
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              September 2002
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-10-164 Management Advisory Report: Appeals Should Further Evaluate Team Concept
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                and Settlement Authority Before Implementing Nationwide (9/4/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-20-168 System-Level Controls for the Internal Revenue Service’s Mainframe Computers
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Are Generally Adequate; However, Additional Actions are Needed (9/4/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-1C-157 Report on Audit of Direct and Indirect Costs for Fiscal Year 2001 (9/6/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-40-162 Efforts Are Still Needed to Discourage the Use of Illegal Tax Protester and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Similar Designations (Taxpayer Rights and Entitlements: 303 taxpayers
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                improperly identified; Reliability of Information: 144 Internal Revenue
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Manual Sections with prohibited references to Illegal Tax Protester
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                designations.) [9/6/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-30-171 Controls Over Compliance Initiative Projects Have improved, But Use of the
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Process Is Limited (9/9/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-40-167 Third Party Designee Information Was Correctly Processed and Made Available to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Resolve Account and Notice Inquiries (9/10/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-10-123 Additional Management Actions Should Be Taken to Ensure That Government
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Entities’ Customers Meet Their Federal Tax Obligations (Increased Revenue/
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Revenue   Protection: $104 million) [9/11/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-20-160 The Hardware Refreshment Program Is Generally Effective, But Improvements
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Can Be Made (9/11/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-20-165 Although Still Behind in Certifying the Security of Sensitive Computer Systems,
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                the Internal Revenue Service Has Made Significant Progress (9/11/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-30-148 The Large and Mid-Size Business Division Should Consider Changes to the
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Computer Audit Specialist Program to Address Operational Priorities (9/11/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-30-156 The Internal Revenue Service Does Not Penalize Employers that File Wage and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Tax Statements with Inaccurate Social Security Numbers (Increased Revenue/
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Revenue Protection: $39 million) Note: Monetary benefit projected over a
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                five-year period. [9/11/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦2002-40-163 Compliance With Regulations Restricting the Use of Records of Tax
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Enforcement Results Shows Improvement (Taxpayer Rights and Entitlements:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                4,534 employees whose performance documentation may contain violations
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                of RRA 98 § 1204 (b) concerning the use of enforcement statistics.) [9/11/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-40-177 The Internal Revenue Service Cannot Monitor Its Compliance With the Direct
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Contact Provisions (9/11/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                              ♦2002-30-147 The Financial Products Specialist Program Controls Could Be Improved to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Ensure More Timely and Accurate Examinations of Large Corporations
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                (9/12/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                             ♦ 2002-20-170 Additional Improvements Are Needed in the Application of Performance
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Based Contracting to Business Systems Modernization Projects (9/13/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002              Appendix IV - 7
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                   September 2002 (continued)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-166 Management Advisory Report: Progress Has Been Made to Consolidate
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     the Automated Collection System Workload, But Achieving Employee Skill
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Specialization Remains an Uncertainty (9/13/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-30-149 The Engineer Specialist Program Controls Could Be Improved to Ensure
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     More Timely and Accurate Examinations of Large Corporations (9/16/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-182 Management Advisory Report: Progress in Issuing Employer
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Identification Numbers Has Been Made, But Enhancements Are Needed
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     (9/16/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-40-174 The Internal Revenue Service Needs to Improve the Pre-Filing Tax
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Services Provided to Taxpayers (9/16/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-10-169 Improvements Are Needed in the Automated Underreporter Program to
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Ensure That Taxpayer Information Sent to External Tax Agencies Is
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Accurate (Taxpayer Burden: 469 taxpayer accounts containing
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     inaccurate information.) [9/18/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-180 Nationwide Guidelines and Controls for Lockbox Banks Need Further
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Improvement (Protection of Resources: $329 billion in payments at risk.)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     [9/18/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-185 The Internal Revenue Service Should Evaluate the Feasibility of Using
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Available Documents to Verify Information Reported on Business Tax
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Returns (9/18/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-40-176 The Internal Revenue Service Has Improved Controls Over the Issuance
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     of Levies, But More Should Be Done (Taxpayer Rights and Entitlements:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     one taxpayer did not receive levy appeal rights.) [9/18/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-10-183 The Travel Charge Card Program’s Controls Could Be Enhanced (Funds
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Put to Better Use: $104,468; Protection of Resources: $1.1 million, from
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     5,474 transactions, could not be reconciled to an approved travel
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     document.) [9/23/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-186 The Internal Revenue Service Needs to Simplify Filing Requirements and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Clarify Processing Procedures for Small Business Corporate Returns
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     (Increased Revenue/Revenue Protection: 61 taxpayers; Taxpayer Rights
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     and Entitlements: 52,050 taxpayer accounts; Taxpayer Burden: 232,425
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     accounts.) [9/23/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-10-178 Management Advisory Report: The Internal Revenue Service Does Not Yet
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Have a System That Integrates All Taxpayer Complaints (9/24/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-10-190 The Internal Revenue Service Has Implemented a New Policy to Reduce
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Future Relocation Costs, But Improvements Are Needed in Its Cost
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                     Tracking Systems (9/24/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix IV - 8
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      September 2002 (continued)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦2002-10-196
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Criminal Investigation’s Use of Confidential Funds for Undercover Operations Is
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Appropriate; However, Certain Aspects of Undercover Operations Need
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Improvement (Increased Revenue/Revenue Protection: $38,712) [9/24/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦2002-40-175              Improved Documentation Is Needed to Ensure Taxpayers Are Informed of Their
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Rights When Requested to Extend the Assessment Statute (Taxpayer Rights and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Entitlements: 37 taxpayer returns with one or more potential violations.)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                [9/24/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                       ♦2002-10-179
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Improvements Are Needed in the Safety and Health Program to Fully Comply with
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Laws and Regulations (9/25/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦ 2002-1C-192             Cost Verification for Subcontract Number S800631, Prime Contract Number
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                TIRNO-99-D-00001 (9/25/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦2002-1C-193              Cost Verification of Subcontract Cost Prime Contract Number TIRNO-95-D-00059
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                (9/25/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦ 2002-1C-194             Agreed Upon Procedures for Subcontract Number S800654, Prime Contract
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Number TIRNO-99-D-00001 (9/25/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦ 2002-1C-195             Agreed Upon Procedures for Subcontract Number S506440, Prime Contract
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Number TIRNO-95-D-00059 (9/25/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦ 2002-30-181              The Internal Revenue Service Needs to Take Timely and Appropriate Closing
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Actions on Offers in Compromise (Increased Revenue/Revenue Protection:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 $43.79 million for 931 accounts; Taxpayer Rights and Entitlements: 713
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 taxpayers  with improperly offset refunds and rebates; Taxpayer Burden: 1,661
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 taxpayers  received  unnecessary balance due notices.) [9/25/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                       ♦ 2002-40-188            Management Advisory Report: The Internal Revenue Service Has Made Progress
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                to Address Tax Law Complexity and to Control New Tax Law Implementation
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                (9/25/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦ 2002-1C-197             Audit of Termination for Convenience Proposal of Subcontract Number
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                S2233P3057, Prime Contract Number TIRNO-00-D-00020, Task 015 (Questioned
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Costs: $573,464) [9/26/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦2002-20-198              Controls Over the Telecommunications Programs Continue to Need Improvement
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                (Funds Put to Better Use: $11.5 million) Note: Monetary benefit projected over a
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                five-year period. [9/26/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      ♦ 2002-40-200             Although the 2002 Filing Season Was Completed Timely, Customer Service Can
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                Be Improved During Error Processing (Taxpayer Rights and Entitlements:
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                132,672 taxpayers did not receive $25.7 million in Additional Child Tax Credits.)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                [9/26/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 The New Suspension of Interest Provision Is Not Always Calculated Correctly
                      ♦ 2002-10-187
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 (Increased Revenue/Revenue Protection: $138,532 for 5,689 accounts; Taxpayer
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 Rights and Entitlements: $561,997 for 6,556 accounts; Taxpayer Burden: 28,728
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                 taxpayers not notified about under assessed interest.) [9/27/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                      TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002              Appendix IV - 9
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
78901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                   September 2002 (continued)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                   ♦2002-20-189
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Annual Assessment of the Internal Revenue Service’s Business Systems
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Modernization Program (9/27/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-20-199         Annual Assessment of the Internal Revenue Service’s Information
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Security – Fiscal Year 2002 (9/27/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-40-202         The Internal Revenue Service Continues to Pay Tax Refunds on E-Filed
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       Tax Returns Prior to Ensuring a Signature Document Is Processed
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       (Funds Put to Better Use: $40 million) Note: Monetary benefit
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                       projected over a five-year period. [9/27/02]
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦ 2002-40-203       Outreach Initiatives Need to Ensure Taxpayers Receive the Benefit of
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      the Child Tax and Additional Child Tax Credits (Taxpayer Rights and
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Entitlements:    $212.3 million for 478,888 taxpayers not notified that
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      they  appear   eligible for Additional Child Tax Credit) [9/27/02].
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                  ♦2002-30-184        Management Advisory Report: Analysis of Trends in Compliance
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                                                      Activities through Fiscal Year 2001 (9/30/02)
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
                     TIGTA Semiannual Report to Congress         April 1, 2002 through September 30, 2002                Appendix IV - 10
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
 8901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                             Appendix V – Statutory TIGTA
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                               Reporting Requirements
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678



                                                 40
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                   statutory audit reports that dealt with the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                   adequacy and security of IRS technology
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                   were issued during this reporting period.1
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              In FY 2002, TIGTA completed its fourth round of statutory reviews that are required
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678




                                                                                                                                                APPENDIX V
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              annually by RRA 98. The following table reflects the status of the FY 2002 RRA 98
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              statutory reviews.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                     Reference                      Explanation
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                                     Comments/
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    to Statutory                      of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                                    TIGTA   Audit
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                     Coverage                        Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                                        Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Enforcement Statistics         An evaluation of        Reference No. 2002-40-163, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                             IRS’   compliance
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                I.R.C. § 7803(d)(1)(A)(i) with restrictions          IRS’ compliance with RRA 98 § 1204 (a) and
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                             under   Section  1204   (b) has not yet been achieved although there
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                             of RRA   98  on the     was some improvement. A review of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                             use  of enforcement     200 statistically sampled enforcement
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                             statistics to evaluate  employees’ performance or related
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                             IRS   employees.        supervisory documentation revealed no
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     violations. However, the review did reveal
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     that 22 of 200 employee files did not include
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     evidence that the employee was evaluated in
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     the fair and equitable treatment of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     taxpayers. Projected across the estimated
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     population of 41,220 enforcement
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     employees as of October 6, 2001, OA
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     estimated that similar potential violations
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     could affect 4,534 enforcement employees
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     (±4.9 percent). OA was unable to determine
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     if the IRS was in compliance with Section
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     1204 § (c) because of IRS and TIGTA
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     resource limitations. Limited tests of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     appropriate supervisors responsible for the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     200 sampled employees indicated the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                     certifications were properly submitted.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               1This includes 23 audit reports on the adequacy of IRS technology and 17 audit reports on
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               the security of IRS technology. All information technology program reviews are considered
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               statutory based on the RRA 98 requirement to report annually on the adequacy and security
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               of IRS technology.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               To view audit reports referenced in this appendix, click below:
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              #
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                        http://www.treas.gov/tigta/audit_reports.htm
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                    Appendix V - 1
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                     Reference                 Explanation             Comments/TIGTA Audit Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   to  Statutory                   of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    Coverage
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    Restrictions         An evaluation of        Reference No. 2002-40-177, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    on  Directly         IRS’ compliance
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    Contacting           with restrictions       As in the prior reviews, OA could not determine
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    Taxpayers            under I.R.C. § 7521 whether IRS employees followed proper
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 procedures to stop an interview if the taxpayer
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                         on directly
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 requested to consult with a representative. Neither
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    I.R.C.               contacting
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    § 7803(d)(1)(A)(ii)  taxpayers who have IRS nor OA could readily identify cases where the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                         indicated that they taxpayer requested a representative or the IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                         prefer their            contacted the taxpayer directly and bypassed the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                         representatives be      representative. IRS management information
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                         contacted.              systems do not separately record or monitor direct
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 contact requirements, and the Congress has not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 explicitly required IRS to do so. TIGTA does not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 recommend the creation of a separate tracking
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 system.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    Filing of a           An evaluation of      Reference No. 2002-40-135, August 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    Notice of             IRS’   compliance
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    Lien                  with required         IRS has not yet achieved full compliance with the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          procedures            statute and its own internal guidelines. A review of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          under    I.R.C.       223 Notice of Federal Tax Liens (NFTL) identified
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    I.R.C.                §  6320  (Supp.  IV   20 NFTL cases with potential legal violations of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    § 7803(d)(1)(A)(iii)  1998)   upon  the     taxpayers’ rights. In three NFTL cases, IRS did
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          filing  of a notice   not mail the lien notices to the taxpayer or to the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                last known address of the taxpayer. For one NFTL,
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          of lien.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                the Automated Lien System did not create a
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                corresponding lien notice, and for two NFTLs, two
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                lien notices were not issued to the taxpayers
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                because of employee errors. IRS employees
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                requesting the liens did not ensure they had used
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                the taxpayers’ most current address available on
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                IRS’ computer systems before mailing the lien
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                notices. For 17 NFTL cases, the lien notices were
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                not mailed within five business days after the filing
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                of the NFTL and were late because of printer
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                problems and/or staffing issues. OA estimates that
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                similar taxpayer rights could have been potentially
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                affected in 29,219 NFTLs prepared from
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                October 1, 2000, to July 31, 2001.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                In addition, OA identified 46 of 223 NFTL cases in
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                which IRS employees did not follow internal
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                guidelines when issuing lien notices.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                      Appendix V - 2
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                Reference                Explanation
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                    Comments/TIGTA Audit Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                            of the
                               to Statutory
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                Coverage                  Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        An evaluation of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Levies                                            Reference No. 2002-40-176, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        IRS’ compliance
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        with required
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                IRS has not achieved full compliance with the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              I.R.C.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        procedures    under
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                statute. Although the systemic controls in both the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              § 7803(d)(1)(A)(iv)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        I.R.C
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                Automated Collection System (ACS) and the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        § 6330 (Supp. IV
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                Integrated Collection System (ICS) are functioning
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        1998) regarding
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                as intended, revenue officers working in Collection
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                        levies.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                field offices can easily circumvent the ICS systemic
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                controls over the issuance of levies. Revenue
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                officers have the ability to change the date that the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                notice of appeal rights was sent to the taxpayer.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                This could result in the systemic control incorrectly
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                computing the number of lapsed days. OA
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                identified one case of this actually happening in its
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                review of 61 levies generated by the ICS.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                Manual levies pose an even greater risk to the IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                than systemic levies generated by the ACS and ICS.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                IRS does not know how many manual levies are
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                issued, and the use of manual levies by revenue
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                officers is uncontrolled. The risk of taxpayers not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                having their rights properly protected is increased
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                because revenue officers have the authority to issue
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                manual levies without managerial review or
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                approval.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                The Collection quality review system could also be
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                improved to specifically identify violations of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                statute.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Collection Due         An evaluation of           Reference No. 2002-10-068, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Process                IRS’   compliance
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     with required              In 85 of the 87 cases reviewed (98 percent), the IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     procedures     under       generally complied with the requirements of the law
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              I.R.C.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     I.R.C.                     and ensured taxpayers’ appeal rights were
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              § 7803(d)(1)(A)(iii)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     §§  6320   and  6330       protected. However, in 2 of the 87 cases, the IRS did
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              and (iv)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     (Supp.   IV 1998)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                not always follow all the requirements of the law. In
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     regarding    the           these instances, Appeals Officers either did not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     taxpayers’    rights to    adequately balance the efficiency of the proposed
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     appeal   lien or  levy     collection action against the taxpayer’s legitimate
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     actions.                   concerns that the action be no more intrusive than
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                necessary or did not obtain adequate verification
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                from the IRS that all regulations had been met. OA
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                    Appendix V - 3
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                      Reference              Explanation           Comments/TIGTA Audit Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    to Statutory                of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                     Coverage                 Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Collection Due Process
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 (continued)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 does not believe that in either of these cases the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 noncompliance resulted in a legal violation of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 taxpayer’s Collection Due Process rights since no
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 collection actions were ever initiated.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Additionally, in 82 of the 87 cases, Appeals
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 appropriately communicated the decision to
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 taxpayers. These results indicate an improvement in
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 communicating Appeals’ decisions to taxpayers
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 when compared to the prior year’s audit. Ensuring
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 all determination letters completely outline all the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 provisions of the law considered in the decision and
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 by ensuring all established guidelines are followed
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 could make further improvements.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 The Code of Federal Regulations (CFR),
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 26 CFR 301.6330-1T(e)(Q-E7), and Appeals
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 procedures state that the letters must address all
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 issues raised by the taxpayer and whether the IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 followed all the applicable rules and administrative
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 procedures and balanced tax collection with the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 taxpayers’ legitimate concerns. The IRS guidelines
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 also require the letters to provide information
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 concerning which court the taxpayer must file his/
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 her request for judicial review, as well as
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 information about any agreements reached during
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 the hearing and the actions to be taken by the IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 or the taxpayer.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Seizures               An evaluation of       Reference No. 2002-40-155, August 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          IRS’ compliance Based on OA’s review of a sample of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   I.R.C.                 with required          73 seizures performed during February through
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   § 7803(d)(1)(A)(iv) procedures under July 2001, OA determined that actions taken by
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          Subchapter D of        IRS when seizing taxpayers’ property for payment
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          Chapter  64  for       of delinquent taxes were in accordance with the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          seizure of property law. For two seizures, IRS initially did not follow
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          for collection of      internal guidelines. However, IRS’ review process
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                          taxes.                 identified the errors and took the appropriate
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 steps to correct the conditions. Taxpayer rights
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 were not affected. IRS’ continuing compliance
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 with legal provisions is attributed to the consistent
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 legal provisions and internal seizure procedures,
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 as well as to the technical expertise and assistance
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 provided by various IRS offices and the IRS’
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 continued emphasis on training.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                      Appendix V - 4
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                 Reference                Explanation
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   Comments/TIGTA Audit Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                to Statutory                  of  the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                 Coverage                  Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Taxpayer               An evaluation of         Reference No. 2002-40-162, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Designations –         IRS’ compliance          In general, IRS is in compliance with the prohibition
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Illegal Tax            with restrictions        on using Illegal Tax Protestor (ITP) or similar
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Protester              under   Section    3707  designations. Former ITP codes were not reintroduced
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Designation            of RRA    98  on         on IRS’ Master File after the effective date of the law
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               and  Nonfiler          designation     of       and were not reassigned to a similar ITP designation.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Designation            taxpayers                IRS has effectively updated or made obsolete any
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                               publications containing ITP references. However, IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               I.R.C.                                          still has not removed all the ITP references from its
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               § 7803(d)(1)(A)(v)                              Internal Revenue Manual and IRS employees continue
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                               to make references to taxpayers as ITPs and other
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                               similar designations in case file histories.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Disclosure of          Review and               Reference No. 2002-40-159, August 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Collection             certify whether          This is the fourth year that OA could not determine
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Activities With        or not IRS is            whether IRS is complying with the statutory
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Respect to Joint       complying with           requirements for responding to written requests from
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Returns                I.R.C. §                 joint filers because both OA and IRS are still unable to
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     6103(e)(8)     to        readily identify joint filer requests received nationwide.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              I.R.C.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     disclose    informa-     IRS management has decided not to develop a new
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              § 7803(d)(1)(B)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     tion  to  an             management control process to track joint filer
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              I.R.C. § 6103(e)(8) individual filing
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                              requests. IRS management information systems do not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     a joint return on        separately record or monitor joint filer requests, and
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     collection               Congress has not explicitly required the IRS to do so.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     activity involv-         OA does not recommend the creation of a separate
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     ing the other            tracking system.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     individual     filing
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                     the return.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Taxpayer                Requires TIGTA          Reference No. 2002-10-178, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Complaints              to include in each The IRS does not yet have a system to integrate all
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      of its Semiannual taxpayer complaints for the TIGTA Semiannual Report
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              I.R.C.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      Reports to Con-         to the Congress. IRS management reports complaints
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              §  7803(d)(2)(A)        gress  the   number     of employee misconduct required by I.R.C. §
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      of taxpayer             7803(d)(2)(A)(ii), but does not believe they have the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      complaints              responsibility to report the more general complaints
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      received and the        required by I.R.C. § 7803(d)(2)(A)(i). A business case
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      number of em-           for a new case management system is being developed
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      ployee misconduct for the Taxpayer Advocate Service Office. If approved,
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      and taxpayer            this system may eventually be expanded to other offices
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      abuse   allegations     and provide the ability to record complaints not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      received    by  IRS  or currently tracked on other systems.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      TIGTA     from
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      taxpayers, IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      employees and
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      other sources.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                    Appendix V - 5
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                      Reference              Explanation          Comments/TIGTA Audit Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    to  Statutory               of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                     Coverage                 Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Administrative Include information              Reference No. 2002-10-101, May 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   or  Civil Actions   regarding any
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   Based on a review of information recorded as
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       administrative   or  civil
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   With   Respect  to                              potential Fair Debt Collection Practices Act
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       actions  with  respect  to
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   the  Fair  Debt                                 (FDCPA) violations on the IRS’ computer
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Collection          violations  of the fair     systems, OA identified two FDCPA violations that
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Practices Act       debt collection             occurred after July 22, 1998, and resulted in
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    of 1996            provision of I.R.C.         administrative actions being taken against
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       § 6304, including a         employees for the period January 1 through
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   I.R.C.              summary of such             December 31, 2001. In addition, the IRS had no
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   §  7803(d)(1)(G)    actions, and any
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   closed cases in which the IRS paid any money to
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       resulting  judgments
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   I.R.C.  § 6304                                  taxpayers for civil actions resulting from FDCPA
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Section   3466      or awards    granted.       violations.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    of RRA   98
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Denial of          Include information          Reference No. 2002-10-093, May 2002 The IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Requests for       regarding improper
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   improperly withheld information from requesters
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      denial of requests for
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   Information                                     in 10.6 percent of the Freedom of Information Act
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      information from
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   (FOIA) and Privacy Act (PA) requests, and
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      IRS, based on a
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   I.R.C.                                          12.2 percent of the I.R.C. § 6103 requests
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   § 7803(d)(1)(F) statistically valid
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      sample of the total          reviewed. Additionally, the IRS did not respond
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   I.R.C.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   timely to requesters in 22.7 percent of the cases
                                                      number    of  determi-
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   § 7803(d)(3)(A)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      nations made by IRS          included in OA’s sample of information that was
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      to deny written              denied or where the IRS replied that responsive
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      requests to disclose         records were not available. OA’s statistically
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      information to               valid samples were taken from cases closed
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      taxpayers on the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   during the period January 1 through June 30,
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      basis of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   2001. OA estimated that information was
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      I.R.C. § 6103 or
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                                                                   1
                                                                                   improperly withheld from responses to 458 FOIA
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                      5 U.S.C.  §  552(b)(7).
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   and PA requests and 1,052 I.R.C. § 6103 requests
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   during the sample period. OA also estimated that
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                                     2
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   responses to 977 FOIA and PA requests were not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                   processed timely during the same period.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   1, 2 Since the FOIA and PA grant taxpayers the right to receive requested information (unless
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   specifically exempted) as well as the right to receive a response to their information request
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                   within a certain time period, OA is reporting these outcomes separately.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                      Appendix V - 6
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                 Reference               Explanation             Comments/TIGTA Audit Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                to Statutory                 of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                 Coverage                 Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Extensions of the        Include information Reference No. 2002-40-175, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       regarding extensions IRS generally complied with the requirements of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Statute of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       of the statute of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Limitations for                                     the law and ensured that taxpayers were notified of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       limitations for
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              Assessment    of  Tax                               their rights concerning the extension of assessment
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       assessment    of tax
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  statute. IRS employees properly advised taxpayers
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       under I.R.C. § 6501
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              I.R.C.                                              of their rights to refuse or restrict the scope of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              § 7803(d)(1)(C)          and the provision of statute extension in 32 of 48 case files reviewed.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       notice to taxpayers        However, in 16 of 48 case files, employees did not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                              I.R.C. § 6501
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       regarding the right        document the related case files whether or not
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       to refuse or limit the taxpayers were advised of their rights. Also,
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       extension to particu- employees did not always ensure that both
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       lar issues or a
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  taxpayers who jointly filed returns (22 of 24) were
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       particular   period  of
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  separately notified of their rights to extend the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       time.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  statute. In addition, where taxpayers made a
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  declaration of representation, there was no
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  documentation in the related case files (24 of 33)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  that IRS had provided both the taxpayers and the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                  representatives with the advice of rights.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Adequacy and            Evaluation of IRS’        The consolidated status of the adequacy and
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Security  of the        adequacy    and           security of IRS technology for this reporting period
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               Technology    of the                              is highlighted on pages 10 through 11.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                       security  of its
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               IRS                     technology.
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               I.R.C.                                            Information Technology:
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                               §7803(d)(1)(D)                                    Reference No. 2002-10-017, November 2001
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-025, November 2001
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-026, November 2001
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-40-028, December 2001
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-043, January 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-30-054, February 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-056, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-059, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-073, April 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-084, May 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-100, May 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-112, June 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-121, June 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-122, July 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-124, July 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-128, July 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-136, July 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-138, August 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-146, August 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-160, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-170, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                                 Reference No. 2002-20-189, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                    Appendix V - 7
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
89012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                      Reference              Explanation          Comments/TIGTA Audit Status
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                    to Statutory                of the
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                     Coverage                 Provision
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Adequacy and Security of the Technology of the IRS
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            (continued)
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-198, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Security Reviews:
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-007, October 2001
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-044, January 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-045, January 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-10-079, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-057, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-063, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-074, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-075, March 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-064, April 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-082, April 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-109, June 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-117, June 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-10-102, July 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-145, August 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-165, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-168, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                                                                            Reference No. 2002-20-199, September 2002
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
                     TIGTA Semiannual Report to Congress ! April 1, 2002 through September 30, 2002                      Appendix V - 8
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
 9012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678
34567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                             Appendix VI – Section 1203
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                    Standards
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123


                               I
                                      n general, the Commissioner of Internal Revenue shall terminate the
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                     employment      of any employee of IRS if there is a final administrative or judicial
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    determination that in the performance of official duties such employee
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                              committed     the misconduct violations outlined below. Such termination shall be a
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                              removal    for  cause on charges of misconduct.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123




                                                                                                                                                APPENDIX VI
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                              Misconduct violations include:
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                     ! Willful failure to obtain the required approval signatures on documents
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                            authorizing the seizure of a taxpayer’s home, personal belongings, or
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                           business assets.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                     ! Providing a false statement under oath with respect to a material matter
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                           involving a taxpayer or taxpayer representative.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                     ! Violating, with respect to a taxpayer, taxpayer representative, or other
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                            employee of IRS,
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                              • any right under the Constitution of the United States, or
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                              • any civil right established under Title VI or VII of the Civil Rights Act of
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 1964 (Pub. L. No. 88-352, 78 Stat. 241 [codified as amended in 42 U.S.C.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 § 2000e]); Title IX of the Education Amendments of 1972 (20 U.S.C.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 §§ 1681-1688 [1994]); Age Discrimination in Employment Act of 1967
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 (29 U.S.C. §§ 621-634 [1994 & Supp. IV 1998]); Age Discrimination Act
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 of 1975  (42 U.S.C. §§ 6101-6107 [1994 & Supp. IV 1998]); Section 501
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 or 504 of the Rehabilitation Act of 1973 (Pub. L. No. 93-112, 87 Stat. 355
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 [codified as amended in 29 U.S.C. §§ 701 & 794]); or Title I of the
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 Americans    with Disabilities Act of 1990 (42 U.S.C. §§ 12111 et seq.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                 [1994  &  Supp.   IV 1998]).
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    ! Falsifying or destroying documents to conceal mistakes made by any
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                          employee with respect to a matter involving a taxpayer or taxpayer
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                           representative.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    ! Committing assault or battery on a taxpayer, taxpayer representative, or
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                           other employee of IRS, but only if there is a criminal conviction, or a final
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                          judgment     by a court in a civil case, with respect to the assault or battery.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                      TIGTA Semiannual Report to Congress # April 1, 2002 through September 30, 2002                      Appendix VI - 1
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
34567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                Appendix VI –
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                Section 1203 Standards
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                (continued)
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                               ! Violating the Internal Revenue Code of 1986, Treasury regulations,
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    or policies of IRS (including the Internal Revenue Manual) for the
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    purpose of retaliating against, or harassing a taxpayer, taxpayer
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    representative, or other employee of IRS.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                               ! Willfully misusing provisions of Section 6103 of the Internal
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    Revenue Code of 1986 for the purpose of concealing information
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    from a Congressional inquiry.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                               ! Willfully failing to file any return of tax required under the Internal
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    Revenue Code of 1986 on or before the date prescribed therefore (including
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    any extensions), unless such failure is due to reasonable cause and not to
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    willful neglect.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                               ! Willfully understating Federal tax liability, unless such understatement
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    is due to reasonable cause and not to willful neglect.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                               ! Threatening to audit a taxpayer for the purpose of extracting
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    personal gain or benefit.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   In general, the Commissioner of Internal Revenue may take
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   a personnel action other than employment termination for the
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   misconduct violations outlined above. The exercise of this
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   authority shall be at the sole discretion of the Commissioner and
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   may not be delegated to any other officer. The Commissioner, in
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   his/her sole discretion, may establish a procedure which will be
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   used to determine whether an individual should be referred to the
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   Commissioner        for a determination by the Commissioner. Any
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   determination of the Commissioner in these matters may not be
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                   appealed in any administrative or judicial proceeding.
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                      TIGTA Semiannual Report to Congress # April 1, 2002 through September 30, 2002
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                                                                                          Appendix VI - 2
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
34567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                      TIGTA Semiannual Report to Congress # April 1, 2002 through September 30, 2002
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                                                                                          Appendix VI - 3
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
34567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                          Call our toll-free hotline to report fraud, waste or abuse
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                         1-800-366-4484
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                                                         or write:
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                  Treasury Inspector General for Tax
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                           Administration
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                             P.O. Box 589
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                        Ben Franklin Station
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                                    Washington, D.C. 20044-0589
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
                       Information is confidential and you may remain anonymous
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
 4567890121234567890123456789012345678901212345678901234567890123456789012123456789012345678901234567890121234567890123456789012345678901212345678901234567890123
